<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2014</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2014

                              ----------                              


                        WEDNESDAY, JULY 17, 2013

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard J. Durbin (chairman) 
presiding.
    Present: Senators Durbin, Cochran, Shelby, Collins, and 
Murkowski.

                         DEPARTMENT OF DEFENSE

                         Missile Defense Agency

STATEMENT OF VICE ADMIRAL JAMES D. SYRING, DIRECTOR, 
            UNITED STATES NAVY

             OPENING STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. The subcommittee meets this morning to 
receive testimony on fiscal year 2014 budget request for the 
Missile Defense Agency (MDA). And I'm pleased to welcome the 
Director, Vice Admiral James Syring, from Indiana. Thank you 
for appearing before the committee.
    For fiscal year 2014, the President's budget asks for $7.7 
billion for this agency. It's roughly equivalent to the amount 
provided in fiscal year 2013 after sequestration but assumes 
sequestration in 2014 will not happen. I hope to hear more from 
the admiral today on the impact of sequestration on this fiscal 
year and what cuts in the future might mean.
    While the United States is facing a number of threats 
around the world in the area of missile proliferation, 
including programs in Iran and North Korea, these policy 
problems require use of a number of political, economic, and 
military tools. The Missile Defense Agency brings capabilities 
to the table to face those challenges.
    It's our responsibility to ensure that those capabilities 
perform as advertised, remain focused on realistic threats, and 
be honest about the testing and results. We know the threat is 
real; the question is whether our defense is real.
    President Obama summed up the approach in 2009 in these 
words: ``The best way to responsibly advance our security and 
the security of our allies is to deploy a missile defense 
system that best responds to the threats that we face and 
utilizes technology both proven and cost effective.'' The 
President is taking bold steps to counter threats in North 
Korea and Iran, including most recently ordering the first-ever 
deployment of the Terminal High-Altitude Area Defense (THAAD) 
battery to Guam. This deployment was accelerated by 2 years in 
light of North Korean provocations. I would like for the 
admiral to update us on that.
    In addition, in March, Secretary Hagel announced four major 
steps MDA will take to bolster our defense from the threat of 
long-range ballistic missiles. One key aspect is the planned 
expansion, the ground-based mid-course defense (GMD) system.
    Before it can be expanded, we need to know these missiles 
perform as advertised through rigorous intercept tests. These 
tests aren't easy, and they aren't cheap. But they're critical 
if we're going to adhere to the President's guidance that our 
technology must be ``proven and cost effective.''
    We are painfully aware of the recent test failure just a 
few days ago, on July 5. This committee will appreciate the 
admiral's explanation of what happened. Prior to this month, 
the same system had two high-profile test failures, in the year 
2010, as well. Furthermore, given the difficult fiscal 
environment we face, we need to understand the costs of any 
proposed expansion of the program.
    I have several questions on the ground-based mid-course 
defense plan to ensure the system is reliable and affordable. 
Secretary Hagel also emphasized the U.S. continued commitment 
to North Atlantic Treaty Organization (NATO) and her allies, 
the European Phased Adaptive Approach. Last month, the Aegis 
program had another successful intercept when the USS Lake Erie 
intercepted a target over the Pacific Ocean, using a Block 1-B 
standard missile.
    Of course, none of these issues we discuss today can happen 
without the dedicated military and civilian employees who work 
so hard to keep us safe. Civilian employees are an integral 
part of the Missile Defense Agency team. So, we would like to 
know the impact of the 11-day furlough that began in July due 
to sequestration.
    I commend to all of those at this hearing an article 
written this morning by a civilian employee of the Air Force 
that is printed in the Washington Post, talking about the 
disappointment that he feels, having dedicated his life first 
to the uniformed military and now to the civilian military, and 
facing the furlough on sequester. Based on the fact that he's 
given so much of his life to defending this country, he can't 
understand this approach. Neither can I.
    I look forward to working with you to address these 
important issues, as well as to ensure our fiscal year 2014 
appropriation bill enables the Missile Defense Agency to defend 
and support our Nation and interests around the world, at the 
same time being fiscally responsible.
    I thank the admiral for his testimony this morning. His 
full statement will be included in the record.
    Senator Durbin. Before I turn to him, I'm going to ask the 
ranking vice chair on the full committee, Senator Shelby, if he 
has any opening remarks.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you, Mr. Chairman. Mr. Chairman, I'll 
try to be brief here, but I think this is a very important 
hearing you've called here. Mr. Chairman, I join you today here 
in welcoming Vice Admiral Syring as Director of the Missile 
Defense Agency.
    Admiral Syring is tasked with defending the United States 
deployed forces, allies, and friends against ballistic missile 
attacks. And as you mentioned in your testimony, Admiral, the 
threat continues to grow as our potential adversaries are 
acquiring a greater number of ballistic missiles, increasing 
their range, and making them more complex, survivable, 
reliable, and accurate. I concur with this assessment and 
believe that it's vital to ensure a robust level of funding in 
the missile defense program to combat these complex emerging 
threats.

                           PREPARED STATEMENT

    I look forward to working with you, as I have. And I also 
look forward to your testimony here today to ensure that our 
country is appropriately prepared now and in the future against 
ballistic missile attacks.
    Thank you, Mr. Chairman.
    Senator Durbin. Thank you very much, Senator Shelby. I will 
be including in the record a statement from Senator Cochran.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I am pleased to join you in welcoming the Director of 
the Missile Defense Agency, Vice Admiral James Syring.
    Admiral, it appears that your success with Aegis and the 
development, testing and acquisition of other complex weapon systems 
has landed you in one of the toughest, most complex jobs in the 
Department of Defense. Hitting a bullet with a bullet thousands of 
miles away is no simple task.
    We thank you for your willingness to serve in this important 
position, and we are pleased to have you provide testimony today on 
what is needed and planned for this coming fiscal year for missile 
defense. I have been a strong advocate for a national missile defense 
system, and I am encouraged by the progress since legislation was first 
introduced in 1998.
    An effective missile defense is needed today more than ever. North 
Korea continues to test nuclear capabilities and long range launch 
vehicles, and Iran has successfully launched satellites into space, 
showing they have the capability to develop a long range ballistic 
missile. Even with the recent missed intercept test, the ground-based 
element of this architecture has had more successful intercept tests 
than failures, and so we know this concept can work, but there is a 
great deal more to be done to ensure this system's reliability.
    Considering the recent events with North Korea, I am encouraged by 
the President's decision to increase the number of operational Ground-
Based Interceptors (GBIs) from 30 to 44 to enhance our national missile 
defense posture. But I question whether we are doing all that is 
technically feasible, today, to address complex threats and large raid 
sizes. I have been informed that the performance of our missile defense 
system can be increased in the near term by enhancing discrimination. I 
hope this is something we will be able to discuss in some detail during 
today's hearing.
    Thank you, Mr. Chairman.

    Senator Durbin. Admiral Syring, please proceed.

           SUMMARY STATEMENT OF VICE ADMIRAL JAMES D. SYRING

    Admiral Syring. Good morning, Chairman Durbin, Senator 
Shelby. I appreciate the opportunity to testify before you 
today for the first time as the Director of the Missile Defense 
Agency.
    On July 5, we conducted an intercept test of the upgraded 
Capability Enhancement-1 exo-atmospheric kill vehicle (EKV). 
Although we successfully launched the ground-based interceptor 
(GBI) in FTG-07, it failed to intercept the LV-2 target.
    We have started an extensive review to determine the cause 
of the failure. We did demonstrate all possible secondary 
objectives to include demonstrations of the ballistic missile 
defense (BMD) system sensors, the first use of Aegis BMD as a 
ground-based mid-course defense launch-on sensor, C2BMC, and 
war-fighter tactic techniques and procedures.
    However, the overall test was a failure because the primary 
objective of intercepting the target was not met. I am 
committed to conducting a full evaluation of the path ahead for 
the GMD program, to include more regular testing, an 
acceleration of the CE-II upgrades after intercept testing, or 
redesign and upgrade of the current EKV.
    Regardless of the path we embark on, we will aggressively 
attack any substantiated quality control problems coming out of 
the failure review board that need to be corrected through the 
program. We will continue to keep Congress apprised of our 
decisions.
    Mindful of this failure to intercept and pending the 
outcome of our investigation, we will work with the war-fighter 
and Director, Operational Test and Evaluation (DOT&E) 
communities to determine the path forward and timing for our 
next GMD flight test, which could involve a repeat of the July 
2013 intercept flight test attempt, using the CE-I 
configuration or an intercept flight test using the currently 
planned CE-II configuration. What's important is continued 
testing.
    We are taking other steps over the next few years to 
implement Secretary Hagel's March 15 guidance to strengthen our 
homeland defenses. We are increasing the operational fleet of 
GBIs from 30 to 44 by 2017. This will involve the reallocation 
of GBIs and the refurbishment and reactivation of Missile Field 
1 in Alaska.
    The decision to increase the number of deployed GBIs, of 
course, assumes a successful return to intercept of the next-
generation EKV, the CE-II, and that the results of the FTG-07 
failure investigation do not point to any problematic common 
components within the currently planned production GBI.
    We have begun our evaluation of locations in the 
continental United States to determine a site suitable for 
possible future deployment of homeland defense interceptors. 
Also, in order to provide more robust sensor coverage for 
homeland defense, this year we are working with our Japanese 
partners to deploy a second AN/TPY-2 radar to Japan.
    We will continue to strengthen regional defenses with 
funding to operate and sustain command control battle 
management and communications, and the AN/TPY-2 radars at the 
fielded sites. We will also deliver more interceptors for the 
Terminal High-Altitude Area Defense program and Aegis ballistic 
missile defense.

                           PREPARED STATEMENT

    MDA will continue to fund upgrades to phase one of the 
European phased adaptive approach and proceed on our schedule 
to complete the Aegis Ashore sites in Romania by 2015 and in 
Poland by 2018.
    Sir, I ask that my written statement be accepted into the 
record, and I look forward to answering the committee's 
questions. Thank you.
    [The statement follows:]

           Prepared Statement of Vice Admiral James D. Syring

    Good morning, Chairman Durbin, Ranking Member Cochran, 
distinguished members of the subcommittee. I appreciate this 
opportunity to testify before you for the first time as the Director of 
the Missile Defense Agency (MDA). Our current budget request of $7.684 
billion for fiscal year 2014 will continue the development of defenses 
for our Nation, deployed forces, allies, and international partners 
against increasingly capable ballistic missiles. Since the previous 
Director testified before you last year, we have made good progress in 
the development and deployment of the Ballistic Missile Defense System 
(BMDS) and we continue to build capabilities to defeat more complex 
threats. My priorities in fiscal year 2014 are to continue our strong 
support of the warfighter, support what we have deployed, and deliver 
more capability to the Combatant Commanders (COCOMs).

                        BALLISTIC MISSILE THREAT

    The threat continues to grow as our potential adversaries are 
acquiring a greater number of ballistic missiles, increasing their 
range and making them more complex, survivable, reliable, and accurate. 
The missile defense mission is becoming more challenging as potential 
adversaries incorporate BMD countermeasures. Space-launch activities in 
Iran and North Korea involve multistage systems that serve to further 
the development of ballistic missile technology for longer-range 
systems including intercontinental ballistic missile (ICBM) 
technologies and systems. As the Director for National Intelligence 
recently stated, ``Iran has demonstrated an ability to launch small 
satellites, and we grow increasingly concerned that these technical 
steps . . . provide Tehran with the means and motivation to develop 
larger space-launch vehicles and longer-range missiles, including an 
ICBM.'' In addition to the Taepo Dong 2 SLV/ICBM, North Korea is 
developing a road-mobile ICBM and an intermediate-range ballistic 
missile (IRBM) capable of reaching Guam, the Aleutian Islands, and 
potentially Hawaii. Iran also has steadily increased its ballistic 
missile force, deploying next generation short- and medium-range 
ballistic missiles (SRBMs and MRBMs) with increasing accuracy and new 
submunition payloads. Iran has publicly demonstrated the ability to 
launch simultaneous salvos of multiple rockets and missiles and openly 
discussed tests of an anti-ship ballistic missile.

                       SUPPORT FOR THE WARFIGHTER

    Our overriding goal is to provide support to the warfighter. To 
this end we will increase system reliability, focusing especially on 
improving the performance of the Ground-Based Interceptors (GBIs) and 
the Aegis Weapons System, including the Standard Missile (SM) 
interceptors and continuing our support for operational systems like 
the AN/TPY-2 radar and the Command, Control, Battle Management and 
Communications (C2BMC) at fielded sites. We will also deliver more 
interceptors for Terminal High Altitude Area Defense (THAAD), Aegis 
Ballistic Missile Defense (BMD), and, pending a successful return to 
intercept, Ground-based Midcourse Defense (GMD) as we look for ways to 
make it more operationally effective and cost-effective.
    We remain committed to conducting developmental and operationally 
realistic tests and use a ``fly before you buy'' approach. MDA 
continues to work closely with the Director, Operational Test & 
Evaluation (DOT&E) and collaboratively with independent testers and the 
Services. We follow an Integrated Master Test Plan (IMTP), a 
comprehensive, integrated, and cost-effective flight and ground test 
program that blends developmental testing with tests that employ 
operationally realistic conditions to demonstrate BMD capabilities 
against current and projected threats. I have reviewed the DOT&E 2012 
Assessment of the BMDS, which identified areas that need improvement, 
specifically in the areas of BMDS system-level testing and the 
accreditation of BMDS element models. The report's findings 
acknowledged our integration accomplishments. We must still work to 
improve battle management for a fully integrated BMDS. We also agree 
that we need improved GMD performance models to fully characterize 
system performance. Similarly, although the report did note our 
progress in testing against targets with certain SRBM and MRBM 
characteristics, the acquisition of additional accredited target models 
will help evaluate the performance of all phases of regional defense, 
specifically for the European Phased Adaptive Approach (EPAA).
    In order to provide the warfighters confidence in the execution of 
their integrated air and missile defense plans and the opportunity to 
refine operational doctrine and tactics, this year we plan to 
demonstrate the ability of the integrated BMDS to defeat up to three 
near-simultaneous air and ballistic threats. In the integrated BMDS 
flight test (FTI-01) this past October, the largest, most complex 
ballistic missile defense test ever attempted, we demonstrated the 
capability of the BMDS to engage upon a raid of five near-simultaneous 
representative threats, air-breathing and ballistic missiles, hitting 
four out of five targets. In this year's operational BMDS flight test 
we will use an operationally relevant scenario to demonstrate the 
integration of regional defense systems. In FTO-01 we will engage two 
medium-range ballistic missile targets launched within minutes of one 
another with Aegis BMD and THAAD using Forward Based Mode (FBM) AN/TPY-
2 radar and the C2BMC system operated by Soldiers, Sailors, and Airmen. 
In fiscal year 2014 President's Budget Submission (April 2013) we have 
added 12 more flight tests to the IMTP, going from 37 tests in IMTP 
version 12.2 to 49 tests in IMTP version 13.1. As the BMDS matures we 
need to increase complexity in our flight tests by doing the following: 
adding system-level operational tests; increasing the number of BMDS 
assets in those tests; increasing the numbers, types (ballistic and 
air-breathing) and ranges of the threat representative targets we use 
and conducting more simultaneous launches; and adding the entire 
warfighting chain of command to evaluate concepts of operation and 
tactics, techniques and procedures. We have also increased the number 
of ground-tests in those planning periods from 88 to 106.

                            HOMELAND DEFENSE

    MDA's highest near-term priority remains the successful GMD 
intercept flight test of the newest GBI Exo-atmospheric Kill Vehicle 
(EKV)--the Capability Enhancement (CE)-II EKV. The successful non-
intercept controlled flight test of the CE-II GBI earlier this year 
(CTV-01) gives us confidence and cautious optimism we have addressed 
the causes of the FTG-06a endgame failure in December 2010 and are on 
the right track for a successful return to intercept using the 
redesigned EKV. Based on our analysis of the data from CTV-01, we 
currently plan to conduct FTG-06b in early fiscal year 2014 to 
demonstrate the ability of the CE II EKV to discriminate and intercept 
a lethal object from a representative ICBM target scene. We plan to 
conduct another intercept test using a two or three-stage GBI and the 
CE II EKV by the end of fiscal year 2014 (FTG-09).
    We plan to conduct the next intercept test of the CE-I EKV (FTG-07) 
this summer in order to increase warfighter confidence and maintain a 
testing cadence. We slipped this test from May/June this year to 
replace corrupted non-tactical telemetry equipment critical to the 
flight termination system on the interceptor, which is required for 
range safety. We have made numerous improvements to the CE-I fleet 
through refurbishments since the last successful CE-I flight test in 
2008, and this test will demonstrate the reliability of those 
refurbished GBIs. I am committed to flight testing the GMD system, at a 
minimum, once per year; however, I can assure the committee that I will 
not approve the execution of a flight test unless I believe we are 
ready. We will work closely with DOT&E to develop scenarios and targets 
for all of our tests.
    We share the Government Accountability Office concern about 
concurrency in the GMD program and have restructured our GMD return to 
intercept (RTI) plan and schedule to design and qualify EKV fixes that 
address root cause of the FTG-06a failure, and confirm the fixes 
through rigorous ground and flight testing. The original RTI plan 
accepted significant and excessive concurrency (parallel development, 
testing and production activities) and the result has been continued 
slips in the RTI plan. The current baseline RTI plan reduces this 
concurrency using systems engineering ``gated'' events that confirm 
critical components are ready to proceed to testing and production 
while leaving options open to integrate lower risk components.
    Today, 30 operational GBIs protect the United States against a 
limited ICBM attack from current regional threats, such as North Korea 
and Iran. Over the past year we have achieved higher operational 
availability rates with the GMD system, mainly through high levels of 
redundancy in the GMD Fire Control and communications systems. The 
currently operational hardened Fort Greely, Alaska (FGA) power plant 
distributes commercial power and provides generator power during 
outages. We continued to maintain and improve the GMD guidance system 
and engagement performance through software upgrades of the CE-I and 
CE-II EKVs. Last year we completed construction of the 14-silo Missile 
Field-2 at FGA and emplaced the first GBI in that field in March 2012. 
We also relocated the last interceptors from Missile Field-1. This year 
we will continue with our Enhanced Reliability and Stockpile 
Reliability Programs to track performance, aging, and reliability 
metrics, software updates, and technology enhancements for all GMD 
ground systems.
    MDA requests $1,033.9 million in fiscal year 2014 in Research, 
Development, Test and Evaluation (RDT&E) funding for GMD to sustain the 
current system and take steps to address the continued development of 
ICBMs by countries such as North Korea. In addition to our flight 
testing activities, we will continue our GMD reliability activities and 
fleet upgrade program. We are also increasing the number of GBIs we 
plan to produce and deploy. As announced on March 15 by Secretary 
Hagel, consistent with the February 2010 Ballistic Missile Defense 
Review (BMDR), and assuming a successful return to intercept, we plan 
to increase our operational GBI fleet from 30 to 44 in 2017 by re-
allocating GBIs from the spares and stockpile reliability program. We 
will reset this program with the procurement of 14 additional GBIs, two 
per year, starting in fiscal year 2016. We also request $135 million in 
fiscal year 2014 to rebuild a hardened Missile Field 1 critical to 
achieving the 44-operational-GBI capability.
    In fiscal year 2014 we will continue work on the GBI In-Flight 
Interceptor Communication System (IFCS) Data Terminal (IDT) at Fort 
Drum, New York, which we will deliver in early fiscal year 2015 and is 
planned to be operational in 2015. The East Coast IDT will enable 
communication with GBIs launched from Fort Greely, Alaska and 
Vandenberg Air Force Base in California over longer distances and 
improve defenses for the eastern United States by increasing system 
performance in specific engagement scenarios.
    Pursuant to the fiscal year 2013 National Defense Authorization 
Act, this year we will begin a siting study for a potential Missile 
Field in the Continental United States (CONUS). MDA has initiated a 
CONUS Interceptor Site (CIS) study to evaluate several sites for the 
potential future deployment of additional GBIs capable of protecting 
the homeland against threats from nations such as North Korea and Iran. 
MDA will conduct a siting study this year to inform the President's 
budget submission for fiscal year 2015. The Environmental Impact 
Statement will be completed by the first quarter of fiscal year 2016. 
These efforts would shorten the time to deploy additional GBIs if a 
future decision to do so were taken.
    We are also improving our homeland defense options with the 
continued development of the two-stage GBI. The two-stage GBI has less 
burn time than the three-stage version, which allows it to operate 
within shorter engagement timelines, and will preserve future 
deployment options.
    To maintain readiness in our network of strategic radars, last year 
MDA worked with the Air Force to begin upgrading the Early Warning 
Radar (EWR) at Clear, Alaska to give it a missile defense capability, 
providing improved ballistic missile defense sensor coverage over the 
continental United States and reducing sustainment and operating costs. 
For fiscal year 2014 we are requesting $51 million to continue this 
work. Along with the Clear EWR contract award, we also exercised a 
contract option in fiscal year 2013 to upgrade the Cape Cod EWR. The 
upgraded Clear EWR will be added to the BMDS operational baseline in 
fiscal year 2017, with the upgraded Cape Cod EWR added in fiscal year 
2018. MDA plans to transfer the Beale (California), Fylingdales (United 
Kingdom), and Thule (Greenland) Upgraded Early Warning Radars to the 
Air Force in the later part of fiscal year 2013 once all three radars 
are operating with the same software configuration.
    This year we are also working with our Japanese partners to deploy 
a second AN/TPY-2 radar to the U.S. Pacific Command (PACOM) Area of 
Responsibility to enhance regional defenses and provide more robust 
sensor coverage for homeland defense.
    We are requesting $44.5 million in fiscal year 2014 for continued 
Sea Based X-band (SBX) radar operations. For affordability reasons, MDA 
transferred the SBX to Limited Test Support Status, where the radar 
continues to support the BMDS test program and remains available for 
contingency deployment under the operational command of PACOM. We 
completed the transfer of the SBX vessel to the U.S. Navy Military 
Sealift Command in fiscal year 2012. New SBX operational software with 
improved discrimination and debris mitigation was delivered and 
completed in January 2013. The new SBX configuration will complete 
integration fielding and testing with GMD in the third quarter of 
fiscal year 2014.

                           REGIONAL DEFENSES

    Deployment of regional defenses to protect our deployed forces, 
allies and international partners remains one of our top priorities. 
Our fiscal year 2014 budget request funds the continued development and 
deployment of defenses against SRBMs, MRBMs, and IRBMs in support of 
Combatant Commanders' near-term and future priorities.
    Terminal High Altitude Area Defense.--MDA delivered the 50th THAAD 
interceptor last year, completing the initial interceptor load for the 
two fielded batteries. With the conclusion of unit collective training, 
MDA also completed fielding of the second THAAD battery. The U.S. 
Army's granting of Conditional Materiel Release for the THAAD weapon 
system made THAAD available for worldwide operational employment. In 
recent tests we demonstrated THAAD's ability to intercept an MRBM as 
part of an integrated operational test with PAC-3 and Aegis BMD (FTI-
01) and its ability to detect, track, and engage multiple simultaneous 
targets (FTT-12).
    In fiscal year 2013 we are delivering the third THAAD battery to 
the U.S. Army and initiating soldier new equipment training, which will 
be completed in fiscal year 2014. MDA will continue to deliver THAAD 
interceptors to inventory, achieving 82 interceptors by the end of this 
fiscal year and 98 interceptors by the end of fiscal year 2014. For 
fiscal year 2014, MDA is requesting $581 million for THAAD procurement, 
which includes the purchase of 36 THAAD interceptors and six launchers, 
and two THAAD Tactical Station Groups for the sixth THAAD Battery. In 
fiscal year 2014 we expect to deliver the fourth THAAD Battery. Our 
current plans are to deliver six batteries and, based on Combatant 
Commanders' desires, we are working with the Army to analyze a 
requirement for a seventh THAAD Battery within the Future Years Defense 
Program. We also are requesting $269 million in RDT&E funding in fiscal 
year 2014 and $92 million for THAAD operations and maintenance. We will 
continue to enhance THAAD's ability to operate through post-intercept 
debris, enable launch of THAAD's interceptors using sensor data 
provided by other BMDS sensors, and maintain capability against current 
and evolving threats.
    Aegis Ballistic Missile Defense.--Last year we installed the Aegis 
BMD 3.6 weapon system on three Aegis ships, for a total of 24 Aegis BMD 
3.6 ships, and completed two Aegis BMD 4.0 installations. We also 
commenced two more Aegis BMD 4.0 installs and initiated BMD 5.0 install 
on the Aegis BMD test ship, the USS John Paul Jones, which will replace 
USS Lake Erie in that role. This approach supports Navy and MDA testing 
of the Integrated Air and Missile Defense combat system. We now have a 
total of 27 certified Aegis BMD ships. This past year we delivered 11 
SM-3 Block IAs and two SM-3 Block IBs, both of which were expended in 
tests. By the end of 2014, up to 39 SM-3 Block IBs will be delivered. 
With the Japan Ministry of Defense, we continued SM-3 Block IIA system 
and component Preliminary Design Reviews and awarded a contract to 
complete SM-3 IIA development.
    In May 2012, we conducted a lethal engagement resulting in the 
successful intercept of a unitary separating target with the second-
generation Aegis BMD 4.0 combat weapon system onboard the USS Lake Erie 
and an SM-3 IB guided missile (FTM-16 Event 2a). This test also 
validated the resolution of the previous flight test issue. In June 
2012, we demonstrated again the ability of the SM-3 IB and the Aegis 
BMD 4.0 combat system to intercept of a separating ballistic missile 
target (FTM-18). Just last month we successfully conducted FTM-19 
destroying a separating short-range target using the SM-3 Block IB 
interceptor and the Aegis BMD 4.0.2 weapon system. This was an 
important operational and developmental test for Aegis BMD that 
supports the All Up Round production decision for the SM-3 IB. All 
three intercept tests represented significant accomplishments for the 
next generation Aegis Weapon System and SM-3 for regional defense and 
specifically in support of EPAA Phase II. In the integrated FTI-01 BMDS 
flight test this past October, the USS Fitzgerald successfully engaged 
a low flying cruise missile over water. The Aegis combat system also 
tracked an SRBM and launched an SM-3 IA against that threat space. 
Despite indication of a nominal flight of the SM-3 IA, we did not 
achieve an intercept. We have a Failure Review Board currently 
investigating why this occurred. We have combed through ground test 
data from all fleet rounds and have not found any rounds with the same 
ground test results as the SM-3 IA used in FTI-01, which gives us 
confidence in all deployed SM-3 IAs. This past February, in FTM-20, we 
successfully intercepted a unitary MRBM target using the SM-3 IA and 
the Aegis BMD 4.0 weapon system in a remote engagement using data from 
the Space Tracking and Surveillance System demonstration (STSS-D) 
satellites. We passed very high quality fire control quality data 
provided from STSS-D satellites through C2BMC. This was a highly 
complex test, and it proved the value of an integrated C2 and sensor 
network and the use of space-based sensors.
    The remainder of this year and next will be busy years for Aegis 
BMD flight testing as we continue to demonstrate capability of the 
Aegis BMD 4.0 Weapons System with the Standard Missile Block IB in a 
series of intercept flight tests. Later this fall, in FTM-21, an Aegis 
BMD ship will demonstrate a salvo fire capability. FTM-22 will 
demonstrate the IOT&E of the SM-3 IB against a complex MRBM target. 
These two tests will support a full-rate production decision. Tests of 
the SM-3 IB against various targets from both ships and our first 
flight testing from Aegis Ashore continue in fiscal year 2014.
    In response to the Combatant Commanders' demand signal for more BMD 
ships with the latest tested capability, Navy and MDA are jointly 
executing efforts to upgrade Aegis Destroyers with BMD capability, 
incorporating Aegis BMD into the Navy's Aegis DDG Modernization Program 
and new construction of Aegis BMD DDGs. In 2014, two previously 
installed Aegis BMD ships will be upgraded with the 4.0 weapons system 
configuration. In addition to the ship upgrades, one non-BMD capable 
ship is programmed to start the Aegis Modernization Program. 
Construction of DDG 113, the first Aegis Destroyer built from the keel 
up with the BMD capability, is well underway. Ships identified for 
homeport transfer to Rota, Spain will have been upgraded or programmed 
to receive the BMD installation.
    We also continue development of a Sea Based Terminal capability to 
provide protection of maritime forces against advanced anti-ship 
ballistic missiles and increased layered defense for forces ashore. 
Using an incremental development approach, we are incorporating BMD 
capability into the Navy's SM-6 guided missile and the BMD 5.0 weapon 
system. We expect to test and certify the first increment of Sea Based 
Terminal capability in 2015 and 2016.
    We are requesting $937 million in RDT&E funding in fiscal year 2014 
to continue the development, testing and, installation of Aegis BMD 
capabilities to defeat longer range and more sophisticated ballistic 
missiles launched in larger raid sizes. We also request $581 million in 
fiscal year 2014 for the procurement of 52 SM-3 IB guided missiles and 
$18 million for operations and maintenance of SM-3 IAs. By the end of 
fiscal year 2014, we plan to deliver a total of 180 SM-3s, including IA 
and IB variants.
    European Phased Adaptive Approach.--We will continue to support the 
EPAA to provide coverage of European NATO territory from Iranian 
ballistic missile threats. In 2011 MDA completed Phase 1 of the EPAA to 
provide coverage of NATO territory in Europe with the deployment of 
Aegis BMD 3.6 ships with SM-3 IAs and a SPY-1 radar in the 
Mediterranean, the AN/TPY-2 radar (FBM) to U.S. European Command 
(EUCOM) in Turkey, and the C2BMC Spiral 6.4 system at Ramstein AFB in 
Germany. We will continue to invest resources for EPAA development, 
testing and deployment.
    Our goal in EPAA Phase 2 is to provide a robust capability against 
SRBMs and MRBMs by ensuring the system provides multiple opportunities 
to engage each threat missile in flight. The architecture includes the 
deployment of the Aegis BMD 4.0 and 5.0 weapon systems with SM-3 IBs at 
sea and at an Aegis Ashore site in Romania. In fiscal year 2012 MDA 
conducted Romania Aegis Ashore planning and environmental studies and 
began component production necessary for early integration and testing 
of the Aegis Ashore system by 2015. Aegis Ashore began construction 
activities in 2012 in Moorestown, New Jersey and construction of a test 
site in Kauai, Hawaii. We signed an overarching Memorandum of Agreement 
with the U.S. Navy regarding Operations and Sustainment of the European 
Aegis Ashore sites. The Aegis Ashore Missile Defense Test Complex at 
the Pacific Missile Range Facility (PMRF) will support flight testing 
of Aegis Ashore capabilities in an operational configuration. The 
complex will be available to conduct the first Aegis Ashore test firing 
in fiscal year 2014. MDA will initiate construction of the Aegis Ashore 
site in Deveselu, Romania with the delivery of the deckhouse in fiscal 
year 2014. The site will be operational by December 2015. MDA requests 
$85 million in fiscal year 2014 to continue construction of the Aegis 
Ashore site in Romania.
    In support of EPAA Phase 3, the SM-3 Block IIA, which we are co-
developing with the Japanese government and an upgraded version of the 
Aegis Weapons System are on schedule to be available for deployment in 
2018 at Aegis Ashore sites in Romania and Poland and at sea. Deployment 
of Phase 3 will enhance and expand protection for European NATO 
countries and U.S. forces through the region from MRBMs and IRBMs from 
the Middle East. The upgraded Aegis Weapons System combined with the 
faster, longer reaching SM-3 IIA will provide capability to counter 
more sophisticated threats when compared to the SM-3 IA and IB and will 
extend coverage to NATO allies in Europe threatened by longer range 
ballistic missiles. With the completion of Phase 3, EPAA will provide 
upper-tier coverage of NATO Europe. As we work closely with Navy in 
modernization, we will also install the 5.1 Aegis Weapons System on 
ships for deployment worldwide in support of the Combatant Commanders. 
We will also install and deploy the 5.1 system in the two Aegis Ashore 
batteries. This past year we continued development of the Aegis BMD 5.1 
fire control system and awarded the SM-3 IIA contract to complete 
missile development. In fiscal year 2014 we will conduct the first fly-
out test of the SM-3 IIA propulsion stack to measure its performance. 
MDA requests $308.5 million in RDT&E funding in fiscal year 2014 to 
continue the bilateral, cooperative effort.
    Command, Control, Battle Management, and Communications and 
Sensors.--We successfully demonstrated this past year our ability to 
interoperate between NATO's Active Layered Theater Ballistic Missile 
Defense (ALTBMD) system and C2BMC. The NATO BMD Operations Center 
(BMDOC) at Ramstein Air Base is NATO's 24/7 command and control center 
for missile defense. Today, the NATO BMDOC participates in joint 
exercises with the EUCOM missile and air defense architecture and is 
responsible for command and control of the multi-national Patriot units 
currently deployed in Turkey.
    In 2012 we continued to support warfighter operations of the EUCOM 
BMDS capability for regional defense and executed key warfighter events 
to demonstrate readiness for defense of Israel by linking the AN/TPY-2 
and C2BMC ballistic missile threat tracks to Aegis BMD, THAAD, and 
Patriot shooters in a distributed environment using operational 
communications and crews. In partnership with the Combatant Commands, 
we maintain the capability to engage multiple simultaneous threat 
attacks in the region. Last year we completed the AN/TPY-2 radar 
deployment to U.S. Central Command (CENTCOM), where we deployed a C2BMC 
suite ahead of schedule as well as the Global Engagement Manager (GEM) 
for control of the AN/TPY-2 radar to enhance regional missile defense.
    We request $300 million in fiscal year 2014 to develop and deploy 
BMDS sensors, and $145.8 million to operate and sustain the nine AN/
TPY-2 radars and support the UEWRs and Cobra Dane EWR.
    We request $418.4 million in fiscal year 2014 to operate and 
sustain C2BMC at fielded sites and continue C2BMC program spiral 
development of software and engineering to incorporate enhanced C2BMC 
capability into the battle management architecture and promote further 
interoperability among the BMDS elements, incorporate boost phase 
tracking, and improve system-level correlation and tracking. We will 
also continue communications support for the AN/TPY-2 radars and C2BMC 
upgrades.
    We request $44.9 million for continued operation of the Space 
Tracking and Surveillance System in fiscal year 2014. In fiscal year 
2012, MDA operated STSS demonstration satellites (STSS-D) around the 
clock with availability exceeding 95 percent as well as the Near Field 
Infrared Experiment (NFIRE) satellite to collect Earth limb 
phenomenology. We continue to operate the two STSS-D satellites to 
conduct cooperative tests with other BMDS elements and demonstrate the 
capability of the satellites against targets of opportunity to provide 
high precision, real-time tracking of missiles and midcourse objects 
that enable closing the fire control loops with BMDS interceptors. We 
conducted a successful intercept of a threat MRBM last February by 
Aegis BMD system using only STSS-D data to provide launch data for the 
SM-3 IA guided missile (FTM-20).
    The Department of Defense has terminated the Precision Tracking 
Space System (PTSS). Concurrency in the development schedule and 
uncertainty in the cost estimates put in doubt long-term fiscal 
sustainability. Moreover, the PTSS acquisition strategy was high risk. 
We believe we need to be in space for infrared (IR) discrimination 
capability, but for now we can address the threat with other land-based 
sensors in key locations, which will allow us to provide support to the 
warfighter in the near term and assume less acquisition risk. A study 
has been initiated to determine how best to support future sensor 
requirements and we are exploring technologies to improve the 
capabilities of ground, air, and space sensors.

                      DEVELOPING NEW CAPABILITIES

    We are developing fiscally sustainable advanced BMD technologies 
that can be integrated into the BMDS to adapt as threats change. Our 
investments are focused on technology that brings upgradeable 
capability to the warfighter. For sensors, in the near-term we will 
integrate and demonstrate electro-optical and infrared sensors using 
available airborne UAV platforms to create a precision track our 
shooters can use . . . For interceptors, our overall strategy includes 
making near-term investments in interceptor technology that accelerate 
our ability to use a kill vehicle singularly or in combination in a way 
that balances our overall approach to solving the very difficult 
problems of lethal object discrimination, limited inventory and cost 
per kill. We will also explore other ways to improve the exchange ratio 
in the missile defense battle.
    Last year, we restructured our high power directed energy program 
and began building the foundation for the next-generation laser system 
by competing two promising lightweight, highly efficient solid state 
lasers, one at Lawrence Livermore National Laboratory and the other at 
MIT Lincoln Laboratory. At MIT Lincoln Laboratory, we built a small-
scale prototype of a laser device that exploits a novel technique for 
combining the output of individual fiber lasers. This year, for the 
fiber laser, we will team with the Defense Advanced Research Projects 
Agency to determine the most efficient method of combining laser beams. 
We will improve the performance of the competing Diode Pumped Alkali 
Laser System at Lawrence Livermore National Laboratory through a series 
of laser system upgrades. MDA is requesting $43.5 million in fiscal 
year 2014 to demonstrate the efficiency, producibility, and scaling 
potential of the two candidate lasers.
    MDA requests $77.3 million in fiscal year 2014 to evaluate and 
research component and sensor technology requirements. Incorporating 
promising hardware and software from prior programs into our advanced 
sensor test bed, we will prove the value of emerging discrimination 
concepts.
    Despite the commonality of their mission and functions, components 
on the current midcourse phase interceptors, the GBI and SM-3 kill 
vehicles, were developed independently at a substantial cost over the 
past decade. We are looking at the benefits of developing common kill 
vehicle technology for the GBI and SM-3 variants, focusing in 
particular on the ability to address future technology advancements 
through the development of a similar set of components, subsystems, and 
software. This common kill vehicle technology effort initially will 
perform risk reduction and examine other technologies that may improve 
future interceptor capabilities. This effort is in keeping with the 
plan for the next generation exo-atmospheric kill vehicle, as directed 
by section 225 of the fiscal year 2013 National Defense Authorization 
Act.
    Given changes in the assessment of the threat from North Korea to 
the U.S. homeland, as well as delays in the potential deployment of any 
SM-3 IIB interceptor resulting from delayed technology development due 
to budget reductions, the Department is evaluating alternatives to 
hedge against future threat technology advancements. The Department is 
no longer planning for the SM-3 IIB program and does not request 
funding for the program in fiscal year 2014. In addition to the cuts 
imposed in the fiscal year 2012 Appropriation and fiscal year 2013 
funding, analyses show a larger missile would be required to achieve 
the necessary burn out velocity, and a larger missile design would have 
taken additional time and resources, pushing the initial operational 
capability out past 2022. Our near-to-mid-term focus for homeland 
defense will be to increase GMD capability, to include increasing 
deployed GBIs from 30 to 44, investing in Common Kill Vehicle 
technology, and conducting siting and EIS studies for a new U.S. GBI 
missile field.
    MDA requests $19.2 million in fiscal year 2014 to continue 
partnerships with industry and universities to seek innovative concepts 
in sensors, weapons, and advanced algorithms. We will leverage 
University-to-University International Research opportunities with 
allied nations to enhance Advanced Technology initiatives and build 
stronger relationships with our international partners and NATO allies.

                       INTERNATIONAL COOPERATION

    MDA is engaged either bilaterally or multilaterally with nearly two 
dozen countries and international organizations, such as NATO and the 
Gulf Cooperation Council.
    In Asia-Pacific, the United States and Japan are working together 
to support the deployment of the second U.S. forward-based AN/TPY-2 
radar. In addition, we continue to develop collaboratively the SM-3 IIA 
to enable U.S. and Japanese Aegis BMD ships to engage MRBMs and IRBMs 
and, when coupled with the upgraded Aegis BMD weapon system, more 
sophisticated ballistic missile threats. This year we signed a Second 
Amendment to the formal joint agreement with Japan administering the 
SM-3 Block IIA Cooperative Development (SCD) effort. The amendment will 
reduce risk in the SCD program by adding flight tests and sufficient 
time in the schedule for additional engineering analysis between flight 
tests.
    This budget continues MDA's longstanding commitment in support of 
Israeli defensive efforts. MDA is working with the Israel Missile 
Defense Organization (IMDO) to deliver Iron Dome batteries and 
interceptors. Iron Dome has had significant success protecting the 
Israeli population against short-range rockets and large artillery 
shells. MDA has been working closely with U.S. Department of Defense 
leadership to ensure U.S. funding for Iron Dome is being used 
effectively to produce additional Iron Dome batteries and interceptors. 
Any further U.S. contributions on Iron Dome will be governed by a 
formal international agreement. MDA is actively seeking Iron Dome co-
production opportunities for U.S. defense industry. We are negotiating 
to obtain available technical data packages and data rights should 
there be a future U.S. defense requirement for this weapon system.
    We are also developing missile defense systems with Israel to 
address regional ballistic missile threats. The David's Sling Weapon 
System is designed to defeat SRBM threats. IMDO and MDA completed the 
first phase of the development of David's Sling last November with a 
successful intercept test. MDA and Israel also are co-developing the 
Arrow-3 Upper Tier interceptor. The advanced design of this interceptor 
was successfully tested this past February in a non-intercept test; a 
second fly-out test is scheduled for fiscal year 2014. MDA also 
participated in Austere Challenge 2012 exercises, which successfully 
demonstrated the concept of operations for the U.S.-Israel BMD 
architecture and future interoperability.
    Elsewhere in the Middle East, U.S. BMD capabilities continue to 
expand in defense of forward-deployed U.S. armed forces, allies, and 
partners. Major MDA activities in the Middle East involve relationships 
with regional partners expressing interest in procuring U.S. systems. 
Last year, MDA was officially designated as a Foreign Military Sales 
(FMS) Implementing Agency for THAAD and the AN/TPY-2 radar. In addition 
to our current $3.5 billion FMS case with the United Arab Emirates, we 
are engaged with several other potential FMS customers for these very 
capable systems.
    In Europe, aside from EPAA planning and fielding, MDA maintains 
active bilateral relationships with our close allies in that region.

                               CONCLUSION

    Mr. Chairman, when I arrived at the Missile Defense Agency last 
November I was impressed with the organization and the dedication and 
professionalism of the government and contractor workforce. The Agency 
is settling into the post-BRAC configuration, which we completed in 
fiscal year 2011. This has been a challenging period for our personnel, 
but we have stayed focused on our core mission. I am proud to lead the 
people behind today's missile defense program. They are highly 
motivated and the very best in the world at what they do.
    The impact of the sequestration on the program and workforce is 
significant. We will see limitations in our ability to deliver future 
homeland defense capabilities. To mitigate some of the effects of 
sequestration cuts, I will be working with the Department to submit an 
Above Threshold Reprogramming request as part of the Department's 
larger request this year.
    Whatever happens, I am dedicated to executing successful GMD 
intercept flight tests over the coming year and will continue to strive 
to ensure reliability in our operational homeland defenses. We have 
made good progress in our work with our international partners, and I 
want to continue those important efforts. We will continue our work 
with the warfighter to develop, test, and field a networked, global BMD 
system that is flexible, survivable, and affordable. We will work on 
ways to cut sustainment costs, reduce high-risk acquisition 
concurrency, improve system reliability, and deliver capabilities as 
promised. And, mindful that today's security environment is unlikely to 
mirror that of tomorrow, we will continue to invest in promising and 
potentially game-changing technology programs to ensure the BMDS will 
be capable of defeating the complex threats we expect to face in the 
future.
    I look forward to answering the committee's questions. Thank you.

    Senator Durbin. Thanks very much, Admiral.
    Philip Coyle, who once ran the Pentagon's weapons-testing 
program, is currently with the Center for Arms Control. He said 
in a statement after the last failed test, that the system ``is 
something the United States military and the American people 
cannot depend upon.''
    Mr. Coyle said there has been no successful test of the 
Ground-Based Mid-course Missile Defense system like the one 
launched in July in 5 years. Pentagon officials acknowledge the 
interceptors had a mixed record, hitting dummy targets just 50 
percent of the time.
    Aside from the cost of each test, which was estimated to 
be, at this point, about $214 million, let me ask you some 
questions. Is it not true that these failed tests have taken 
place in a very controlled and scripted environment? The system 
operators were privy to significant information about the 
attack in advance, and even with that knowledge, 7 of the 15 
intercept tests have failed and the system's track record has 
not improved over time.

                             FLIGHT TESTING

    Admiral Syring. Sir, we do test in a controlled, scripted 
environment, based on the amount of time and money each one of 
these tests costs. That said, we've gone through an extensive 
review. And I think if Dr. Gilmore were here, he would testify 
to the threat-realism aspect of our targets that we have flown.
    And we stand by the results that we've obtained. We have 
obtained three now out of four intercepts with the version that 
we just flew in July. So this was the first failure of what we 
call the CE-I EKV. And our goal is to find out what happened 
and to get back to flight testing as soon as possible.
    I would differ in terms of our confidence level with the 
system. And certainly, the war fighters will chime in and 
testify to that in the upcoming months.
    We handle and will handle in the future reliability 
failures, such as the one we saw, through shot doctrine. And 
the current shot doctrine that the Combatant Command's (COCOM) 
employ would have handled this failure. And that said, we 
cannot stop testing. We must continue to test. We cannot wait 
another 4\1/2\ to 5 years to test again.
    And, as submitted, my budget request in 2014 is requesting 
two GMD flight tests in fiscal year 2014.
    Senator Durbin. Let me ask you just a few specific 
questions. Is it true or not that the GMD system has not been 
tested against an intercontinental range missile, and no plans 
for such tests have been scheduled until 2015, at the earliest?

               INTERCONTINENTAL BALLISTIC MISSILE TESTING

    Admiral Syring. Sir, it has not been tested against an 
intercontinental ballistic missile (ICBM). It's been tested 
against long-range intermediate-range ballistic missiles 
(IRBM), which is the next class down. We're in the process of 
manufacturing a target for ICBM testing to begin in 2015. And 
between now and 2020, there's eight scheduled ICBM intercept 
tests.
    Senator Durbin. Has the system ever been tested against a 
tumbling warhead?
    Admiral Syring. Sir, in a classified environment, I'd be 
happy to answer that.
    Senator Durbin. Let me ask you this: Of the 30 deployed GMD 
interceptors, it has been reported that half include obsolete 
parts, although an additional 10 have been taken off 
operational status because of a known design flaw.

           GROUND-BASED INTERCEPTOR OBSOLESCENCE TO UPGRADES

    Admiral Syring. We've gone through an extensive upgrade 
period of the oldest interceptors that were fielded in the 
early 2000s. The test that we just flew was a CE-I upgrade, 
which was the upgraded EKV that had not been flight tested. So 
it was important for us to flight test that.
    I won't stipulate the number due to classification, but 
there are a number of GBIs that are available to the war 
fighter but in a lesser readiness condition but still usable by 
the war fighter.
    Senator Durbin. So, Admiral, it comes down to this: Since 
President Reagan announced this concept 30 years ago, and we 
started making rather substantial investments, there are still 
serious questions as to whether or not we have a missile 
defense system that can protect America against threats that we 
believe could be coming our way from Iran, North Korea, or 
other enemies of our country.
    This committee and Congress are being asked by some to 
expand the amount of money we spend on the systems at a time 
when testing has not proven that these systems are effective. 
What is your belief? Is this the time to invest more money in 
the deployment of these systems?

                    GROUND-BASED INTERCEPTOR TESTING

    Admiral Syring. The time, sir, is to continue the test and 
to continue to finish the developments that are underway. And 
we're budgeted properly to do that. I won't say that additional 
money won't be required. The budget, as it's currently 
structured, has adequate funding to complete the development of 
the CE-II, to test the CE-II, to complete the upgrades to the 
CE-I fleet. And I remain confident that America is defended 
today with the readiness of our system.
    Senator Durbin. How can you say that you're confident that 
America can be defended if we've never tested our system 
against an intercontinental ballistic missile?

GROUND-BASED INTERCEPTOR CAPABILITY AGAINST INTERCONTINENTAL BALLISTIC 
                                MISSILE

    Admiral Syring. Sir, we have extensive modeling and 
simulation capability that projects the results of our 
conducted intercept testing into the longer range environment. 
Speed and distance are important, and as we have a target that 
is available for intercept testing starting in 2015, we will 
actually demonstrate that. But our models and simulation and 
ground testing that we have done indicate that we would be 
successful.
    Senator Durbin. I'm told by my staff that you are unique in 
that you may be the first from the Navy to be in charge of this 
particular ground-based missile defense. We discussed briefly 
before this hearing the Aegis missile and our reliance on it 
and its proven capability.
    Could you compare the Aegis missile defense system that we 
currently deploy to the ground missile defense system in terms 
of its reliability?

        AEGIS VERSUS GROUND-BASED MID-COURSE DEFENSE RELIABILITY

    Admiral Syring. Sir, the Aegis system was designed in a 
much different environment than the current system that we have 
for GMD. The Aegis system--the GMD--as you're aware, sir, was, 
and the GBIs currently fielded were fielded very quickly to 
meet a growing threat. And that served a very, very good 
purpose.
    The Aegis system was designed early on, once we decided to 
go down that path, in a very systematic systems-engineered 
approach. And I think we see the results of that. It was always 
our intent, or the program's intent, from what I understand, 
historically, was to incrementally improve the GBI system over 
time. And that's what we're doing.
    The Aegis system, sir, has been extremely successful. The 
hit-to-kill technology and the hit-to-kill theory, I think, has 
been proven over and over again, and as it has in GMD, as well. 
I would just say that the two programs were stood up in a much 
different rate in a much different timeframe.
    Senator Durbin. That's the point I'd like to get to. You've 
dedicated a major part of your military career to acquisitions. 
What you've described to us is an Aegis system, which was 
developed in a certain way, in comparison to a ground missile 
defense system developed in another way. The net outcome is the 
Aegis system is reliable, and we count on it to protect our 
Nation. The ground missile defense system has not reached and 
not produced that level of confidence.
    What mistakes were made with the ground missile defense 
system development that you believe led to this contrast?

               PROBLEM WITH SCHEDULE DRIVEN ACQUISITIONS

    Admiral Syring. Sir, I would just--I would characterize it 
more as the schedule-driven pressure to get interceptors in the 
ground to counter the threat. And the decision to field what 
were prototypes was made, and made for good reason, with the 
theory and the program structured after that to go and prove 
these interceptors, which is what we've been doing. That was 
what borne the CE-II program, and that was what will borne the 
common kill vehicle program, which we've requested in the 2014 
budget.
    Senator Durbin. So it seems to me, if I can restate that as 
I heard it, that the deployment schedule was so demanding that 
there was deployment before development, deployment before 
proven test when it came to ground missile defense. And that 
was not the case when it came to Aegis.
    Admiral Syring. I would agree with that, sir.

                       DEVELOPMENT AND PRODUCTION

    Senator Durbin. We run into this repeatedly, whether we're 
talking about the F-35 or others. Keep producing, even while 
you're testing. We've reached a point now where we're making 
some critical budget decisions and may not be able to afford 
that luxury.
    What troubles me is this is a system that still hasn't been 
proven to be able to protect America and the notion of spending 
additional billions of dollars at this moment in time. I can 
understand our goal. It's a worthy one, to protect our Nation. 
But spending more on weapons that are not proven I don't 
believe meets the President's test of weapons both proven and 
cost effective.
    Thank you, Admiral.
    Let me turn it over to Senator Shelby.
    Senator Shelby. Admiral, let's go back to the recent test 
and the failure. Do you believe that the architecture of the 
whole system is sound in itself?
    Admiral Syring. Yes, sir. And we proved that in the last 
test.
    Senator Shelby. Absolutely. If you can get into it some 
here. And if I ask a question and you can't, you'll tell us.
    Admiral Syring. Yes, sir.
    Senator Shelby. We might need a classified hearing on this.
    Was there a mishap dealing with the missile itself?
    Admiral Syring. I'm sorry, sir. What was the word?
    Senator Shelby. The missile. In other words, what was the 
failure? Where did the failure come from at this juncture? I 
know you're still analyzing everything.
    Admiral Syring. What we can say publicly is that the EKV, 
the kill vehicle, did not separate from the third-stage 
booster.
    Senator Shelby. Okay. So it was not the power train? You 
know, it wasn't the missile?
    Admiral Syring. It wasn't the booster, sir.
    Senator Shelby. Booster.
    Admiral Syring. And it wasn't the guidance system. The EKV 
did not separate.
    Senator Shelby. Do you think you can correct that?
    Admiral Syring. Absolutely. Yes, sir. We've seen separation 
issues in previous flight tests before the CE-I, early on in 
the prototype testing. And those have been corrected. And we'll 
find out what happened here, and we'll correct this as well.
    Senator Shelby. The chairman talked about the cost, and 
this is the appropriations subcommittee on defense. We're 
interested in costs. We're also interested in defending this 
country. Don't you need more tests, rather than fewer tests?
    Admiral Syring. Yes, sir.
    Senator Shelby. The more tests, the more you learn, the 
more technology evolves in anything, whether it's a truck, or a 
tank, or a submarine, or a missile, or a missile to defend 
against a missile attack. Don't you need more tests, basically?

                           ADDITIONAL TESTING

    Admiral Syring. Yes, sir. We do need more tests. And I've 
requested in the 2014 budget two intercept tests and at least 
one intercept test in subsequent years.
    Senator Shelby. I realize that the missile defense has been 
an evolving concept to reality and so forth, and it will 
continue to do that. What are your biggest challenges in the 
future as we look around the world? I'm speaking generically. 
Is it better technology, ways to evade defense, or what is it? 
Are there many? Or that should be in another form?

                                 THREAT

    Admiral Syring. If I may, it's a combination of many 
factors. The threat is continuing to proliferate. The threat is 
becoming more sophisticated in both numbers and capability. 
It's important that we stay ahead of the threat, as we are 
today. And the way we do that, and let me break it down into 
two separate areas: Regional defense and homeland defense.
    Homeland defense, I would say our biggest challenge near 
term and then continued testing and proving the technology over 
the next 10 years is reliability of the GBI, reliability of the 
overall system. Flying before we buy any more, which we're 
committed to, and continuing that commitment.
    That said, we need to start to change the cost calculus and 
the cost curve. We can't just keep building bigger interceptors 
and more interceptors. And that is what we'll get into, some of 
the advanced technology work that we're pursuing, some of which 
I can't talk about here today and would be happy to in a 
classified environment.
    Continued partnership with our allies in the regional areas 
over in Europe, over in the Pacific, and over in the gulf 
region. And we've had extensive agreements that we have in all 
three areas that are panning out. And we must continue to 
pursue partnerships in terms of defense of not just the 
homeland, but defense of our regional allies and our forces 
ashore.
    Senator Shelby. Admiral, the Department has proposed to 
terminate what we call the Precision Tracking Space System 
(PTSS) due to concerns over concurrency and the development 
schedule, uncertainty, and of course, in the cost estimates. 
How will MDA backfill lost capability for tracking and 
discrimination if the termination goes through?

              PRECISION TRACKING SPACE SYSTEM TERMINATION

    Admiral Syring. We did have serious concerns with the 
concurrent acquisition strategy of PTSS and the costs to get 
there. We said when we terminated, when the announcement was 
made to terminate that program, that we would be pursuing more 
terrestrial-based sensors, meaning ground sensors. And you've 
heard me talk about the need for more radars and more 
discriminating radars.
    Senator Shelby. Okay. On March 15, Secretary Hagel 
announced that the U.S. will deploy 14 of these additional 
ground-based interceptors in Fort Greely, Alaska. That's about 
a 50-percent increase. Would you clarify how the timeline for 
the emplacement of these additional interceptors would be and 
how this current strategy will impact the per-cost unit of each 
interceptor in the near term?
    Admiral Syring. Yes, sir.
    Senator Shelby. And is that important?
    Admiral Syring. Yes, sir. The strategy to get to 44 by 
2017, by 2017, is a reallocation of missiles that are currently 
in the production flow under the old contract and the new 
contract. Completing those missiles, once we have a successful 
CE-II intercept test in March, is the ``Fly Before You Buy.'' 
We must complete that intercept test to release these missiles 
for final integration.
    And what you'll see is, as those are finished, we will 
populate the remaining silos that exist. And we'll undertake 
starting, or actually starting this summer, the Missile Field 1 
refurbishment.
    So it's a combination of a reallocation, completing what's 
on contract, successfully flying, and demonstrating in our 
intercept tests before we do any of it.
    We have requested, and as part of the strategy that was 
announced on March 15, that we would begin to buy interceptors 
in 2016. And I think you'll see us come back in future budgets 
on more economical and better ways to buy those.
    Senator Shelby. Does the President's 2014 budget request 
provide adequate funding to ensure the additional 14 ground-
based interceptors we'll produce and field by 2017, per the 
Secretary of Defense guidance?
    Admiral Syring. Yes, sir.
    Senator Shelby. Okay. My last question, Mr. Chairman, would 
be in dealing with the Iron Dome, which we all know. And while 
I understand that MDA may not have an immediate requirement for 
the Iron Dome system, I'd be interested in future 
opportunities, if there are some, in co-production of this 
system in the United States should the need for an Iron Dome 
materialize.
    Could you provide us an update, update to the subcommittee, 
on where negotiations currently stand with Israel to obtain the 
technical data packages for this system?
    Admiral Syring. Sir, we have had extensive discussions with 
the Israelis, Israel Missile Defense Organization (IMDO) in 
particular, four meetings recently. We are making progress. 
We're not there yet, frankly. And we are actively negotiating 
and striving for a significant percentage of work share in the 
United States for that system.
    Senator Shelby. Thank you, Mr. Chairman.
    Senator Durbin. Senator Cochran.
    Senator Cochran. Admiral, we appreciate your cooperation 
with our committee and your appearance here today. But 
especially, we appreciate your leadership in helping make sure 
we're doing what we need to do to protect ourselves against 
missile attack and to take advantage of emerging technologies 
so that we utilize those and deploy those as soon as reasonably 
possible, given the constraints of budget and practicality.
    These are sometimes vague and immeasurable and imprecise 
decisions that have to be made. And we appreciate your 
leadership and your team and the devotion and commitment that 
you are making to making the right decisions and helping to 
recommend the right decisions by our Government.
    The recent announcement to deploy some operational ground-
based interceptors is, I assume, due to advancing and more 
sophisticated threats that we face. Are the funds that are 
being requested for appropriation by the Congress now in this 
budget request going to be sufficient to help us move as 
quickly and as completely sound in terms of operational 
capability as the money will allow us?
    Admiral Syring. I'm confident of that, sir. We appreciate 
your committee's support on the above threshold reprogramming 
request. It helped us through the sequestration cut in 2013. 
And as the budget is currently structured in 2014 and 
requested, I'm confident that we can meet that need.
    Senator Cochran. Would you comment on the Cobra Judy 
platform, if that's something that you can discuss in open 
session with us? Specifically, about the enhanced capability 
that this may provide to the missile defense agency? Is this 
something that you are looking at acquiring and will need to 
have funds appropriated to support?

                               COBRA JUDY

    Admiral Syring. The Cobra Judy shipping capability, the 
radars that are on that ship are fantastic radars, as you know. 
And I'm looking, sir, at all options in terms of where we can 
either reuse radars in a better way for discrimination 
capability or potentially build a new radar in the future. It 
will be one of the platforms that we look at. Yes, sir.

                 SEA-BASED OPTION FOR HOMELAND DEFENSE

    Senator Cochran. Thank you. You've indicated that you have 
under review some sites for a third land-based missile defense 
system. And I wonder whether or not a sea-based option is 
included in that review. I wonder about your assessment of that 
and whether evaluating this is an approach to enhancing 
specifically East Coast defense capability as a part of that 
equation.
    Admiral Syring. Yes, sir. As Chairman Dempsey has 
testified, that will be one of the capabilities that will be 
evaluated. The Aegis system, as you know, is a fantastic 
system. We would have to get into a classified discussion in 
terms of what coverage and what capability that could provide 
in defense of the homeland, which I'd rather not go into here 
in an unclassified setting. But, yes, sir, it will be a 
capability that we examine in conjunction with examining the 
third site.

             TERMINAL HIGH-ALTITUDE AREA DEFENSE BATTERIES

    Senator Cochran. Every time I see the acronym THAAD, it 
makes me wonder: What am I doing in this question here?
    But I notice that there's an extra A in the missile 
acronym.
    Senator Durbin. You're moonlighting.
    Senator Cochran. ``Moonlighting,'' he says.
    But I'm just curious. There's been a decision, I suppose, 
made about the number of THAAD batteries. And that's been 
reduced, as I understand it, from nine to six in fiscal year 
2013. To your knowledge, is the Department reevaluating that 
need for increasing the number of batteries? And what is your 
assessment about how effective that system is?
    Admiral Syring. I'll take the second part of the question 
first. The system is very effective, extremely effective since 
the system was redesigned back in the mid-2000s. The track 
record is 10 for 10 in terms of hit-to-kill intercept testing.
    The requirement is nine. For budget reasons, we cut that to 
six during the last budget submission. I am working hard as the 
new director with the Army to find a way to the seventh and 
possibly eighth battery. The system is needed, and the system 
is needed more in number, in my assessment, in discussion with 
the combatant commanders.
    Senator Cochran. Thank you very much for your testimony and 
for your leadership. Again, we appreciate your service.
    Admiral Syring. Thank you, sir.
    Senator Durbin. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chair. And, Admiral, 
welcome, and thank you for the conversations that we have had 
recently to discuss missile defense and, more specifically in 
Alaska, what's happening up in Greely.
    I would like to just state at the outset that I'm confident 
in our systems. I appreciate your leadership there at MDA. 
Recognize that we have had successful tests, CE-I tests, in the 
past. I think you and I would agree that it helps to have 
additional testing. It helps, too, to keep on testing. Is that 
correct?

              ADDITIONAL GROUND-BASED INTERCEPTORS TESTING

    Admiral Syring. Yes, ma'am, I 100 percent agree.
    Senator Murkowski. As you know, I was in Greely at the 
beginning of May, had an opportunity to go through the field 
there. And this is obviously not my first time. I have been 
through on many, many occasions. But I have been pleased to see 
the build-out, the proposal that we have with Missile Field 1 
there. It was absolutely my view that it was shortsighted by 
the Administration with the previous decommissioning of Missile 
Field 1 there at Greely.
    I look at this, and particularly in view of what we see 
with increasing threats coming out of North Korea, Iran, my 
concern is that we not leave Greely at less than full capacity 
and capability. What more can we do at Fort Greely to provide 
the best missile defense to protect our Nation?

                           NORTH KOREA THREAT

    Admiral Syring. Yes, ma'am. The first step is for us to 
complete on schedule the Missile Field 1 refurbishment and to 
get those silos ready for the additional GBIs that we're going 
to buy.
    There would be growth possibilities beyond that if we 
decided to go beyond 44. Forty-four, though, gives us a roughly 
50 percent increase in terms of defense of our homeland against 
a ballistic missile attack. So completing the testing, 
completing the missile field, modifications, being ready for 
the reload of that field up to 44 is of paramount importance to 
our strategy.
    Senator Murkowski. And you are comfortable with the 
schedule that we're on to fill that out?
    Admiral Syring. Yes, ma'am. And there will be contracts 
released this summer to begin that work.
    Senator Murkowski. There are future cost savings, I think, 
if we were to improve Missile Field 1 to 11 or 20 silos now 
instead of 6. Would you agree that by increasing the funds by a 
relatively low amount now that we would increase efficiencies 
and allow for greater benefits in the long run?
    Admiral Syring. Yes, ma'am. There would be benefit to that 
if the threat situation dictated.
    Senator Murkowski. Where would you say that you would 
invest your next dollars in order to achieve that persistence 
coverage for the United States we are all looking for? Where do 
you spend your money next?
    Admiral Syring. I would spend our next dollar on 
discriminating sensors, meaning radars, big radars west and 
east, to give us the capability where I see the threat going in 
the next 5 to 10 years.
    Senator Murkowski. And as you say, okay, those are your 
first dollars. How does this then track with the plans and the 
scheduled build-out at Fort Greely?
    Admiral Syring. The premise, the fundamental tenet of the 
strategy to go to 44 was the escalation of the threat from 
North Korea as the most near-term issue the United States 
faces. And going to 44 by 2017 keeps us ahead of that threat in 
terms of numbers and capacity.
    We need to take the additional step of discriminating 
sensors as the threat moves beyond just numbers, but also 
sophistication to help counter that escalation. And my view is 
that the 44 is important. The 44 addresses what we see with 
North Korea today. Discriminating sensors are going to be 
equally important. And then what you'll see is the Department 
evaluate the need and the requirement to go beyond 44 as we 
start to evaluate the threat from Iran and other nations like 
that.
    Senator Murkowski. So you view these as on parallel tracks? 
So we're working to build out on the radar side, as well, at 
the same time, concurrently then, as we are addressing all of 
our issues at Greely?

                         DISCRIMINATING SENSORS

    Admiral Syring. Yes, ma'am. You'll see us down the 44 path 
in a serious nature, in a serious way. You'll see us study, and 
we've done some studies already with the combatant commander, 
on discriminating sensors and where those might be and what 
they might look like. And then the pre-work that's going on 
with the CONUS interceptor site study that I'm doing this year 
and the Environmental Impact Statement (EIS) that will follow 
to keep these three things in parallel.
    Senator Murkowski. Okay. And you may have addressed this 
already. But can you speak to the timeline of the flight 
testing and return to flight for our newer missiles?
    Admiral Syring. Yes, ma'am. The newest missile will be 
flight tested in March 2014, intercept tested. And as you know, 
we've had two failures of that missile. We understand what the 
problem is. Through ground testing, we're confident that it's 
been completed and adequately addressed, and we look forward to 
the intercept test.
    Senator Murkowski. Thank you.
    Admiral Syring. And that remains on schedule.
    Senator Murkowski. Are we testing now as we would in a war 
fight?
    Admiral Syring. We are testing in a way that is 
representative of a trajectory or a threat missile that would 
come from a country such as North Korea. The last test that we 
did was very similar to that in terms of speed and altitude. 
And it was actually the longest-range intercept test that we 
have tried.
    So we're continuing to progress up that curve. But the 
question that I received from the chairman earlier is, it is 
necessary, based on the cost of these tests, to have our best 
engineers there to script the test, understand what those 
timelines are so that we get the maximum engineering value from 
the test. I'm confident that the war fighters, if asked, could 
employ the system seamlessly.
    Senator Murkowski. Good. Thank you. Thank you, Mr. 
Chairman. Thank you, Admiral.
    Senator Durbin. Thank you, Senator Murkowski.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Admiral, I know that you've already answered a number of 
questions on the unsuccessful test, which came as a surprise to 
us. I know a review board has been established, which will help 
us better understand it. From what I've read, it doesn't seem 
to be an indictment of the ground-based interceptor system as a 
whole, but rather a more narrow issue. Would you generally 
agree with that, based on what you know so far?
    Admiral Syring. Yes, ma'am. Every part of the system worked 
as designed up to the failure of the EKV to separate.
    Senator Collins. Thank you. Admiral, a 2012 report by the 
National Research Council concluded that there are gaps in our 
Nation's ballistic missile defense system, particularly when it 
comes to protecting the East Coast. Alaska is going to be fine. 
But Maine, there is a real gap.
    The report highlighted a location in Maine as one of two 
possible sites for an additional missile interceptor field. In 
your written testimony, you stated that MDA has begun to 
evaluate several candidate sites in anticipation of conducting 
an EIS for an additional ground-based interceptor site within 
the United States. And we've discussed this in my office as 
well.
    Could you provide the subcommittee this morning with an 
update on where you are in this review process? And are you 
still looking at the two sites identified in the National 
Research Council report, as well as other sites?

                               CONUS SITE

    Admiral Syring. Ma'am, thank you for the question. I'll 
answer the second part first. Yes, we are looking at the two 
sites in Maine, in conjunction with other sites as well.
    We are in the process of--screening is a good word for it--
screening all of the sites that we have looked at in detail, 
down to a number that will then result in us going to ask, 
first any Government entities in the area, for additional 
information, and then eventually for us to go onsite to several 
of these places before the end of the year to do site surveys.
    My plan is within the next 2 to 3 weeks, once we've gotten 
the approval through the building of the sites that have been 
screened for the criteria of wanting further information, 
needing further information in terms of viable contenders, 
there's many factors that go into that, as you know, Senator, 
with safety, location, system effectiveness, the geographic 
location, base infrastructure, land infrastructure. There's a 
whole series of criteria that I've used.
    But what we'll do is, we will notify the Congress before we 
go public with any of those selections. And once we do that and 
brief the staff members, we will go ask the sites for more 
information. We will then take that information and study it 
for another few weeks and then send people to the sites that 
have the most promise.
    It's a very serious effort that is backed up with thousands 
of pages of documentation and analysis. It is not haphazard.
    Senator Collins. I know that you will do a thorough review. 
And in addition to the criteria that you mentioned, I also 
would encourage you to look at local support and acceptance for 
the site. I know in my State of Maine, it is a very welcoming 
place for military installations of this sort. In fact, I've 
sent several letters from local groups that endorse the site 
being located in northern Maine at the site of the former 
Loring Air Force Base.
    But I think that's a very important part of this review 
process. Locating the site in an area where it is not welcomed 
by the population I don't think would be wise. So in addition 
to all of those extremely important technical issues, I hope 
that you will consider that factor as well.

                         PUBLIC SUPPORT FACTOR

    Admiral Syring. Ma'am, we do consider that factor, and that 
will be a factor in the decision.
    Senator Collins. Thank you.
    Separate from the discussion regarding an additional 
interceptor site, would an additional radar site on the East 
Coast increase our early-warning capabilities regarding threats 
emanating from the Middle East?
    Admiral Syring. Yes, ma'am. An additional radar would help 
us with the discrimination problem and threat that we see in 
the future.
    Senator Collins. And that is what you seem to be saying in 
response to Senator Murkowski's question, as well.
    Now, I understand that your plan is for the environmental 
impact study for the potential third interceptor site to be 
accomplished in fiscal year 2014. Do you have funding included 
in the budget request to conduct that study? I know EISs are 
expensive, as well as the fact that they take a long time.
    Admiral Syring. No, ma'am. There's not money in the budget 
request currently. We'll be working with the Congress on 
methods to address that shortfall.
    Senator Collins. Admiral, both President Bush and President 
Obama have recognized the advantages of an additional missile 
defense site for more effective defense against long-range 
ballistic missile threats.
    You have looked very carefully at this issue. Could you 
give us your evaluation since 2002 and 2009, when the two 
different presidents made policy decisions in this area? Has 
the ballistic missile threat from our potential adversaries 
grown, stayed the same, decreased? What's your assessment of 
the threat?
    Admiral Syring. Ma'am, I'll answer it in the context of 
being a consumer of intelligence. And I'll let the intelligence 
experts talk about that in more detail in a classified setting. 
But I will say that, as the strategy that was announced by the 
Secretary is the key point of the threat has advanced. And 
North Korea has made strides. The Taepo Dong-2 launch in 
December meant something. And we must be able to address that.
    And the 44 GBIs in Fort Greely will enable us to stay ahead 
of that threat as we see it develop. And we'll be constantly 
evaluating where we need to be in terms of sensors and 
discrimination and potentially more GBIs beyond the 44.
    Senator Collins. Thank you. Let me just end, Admiral, by 
thanking you for your leadership of this very important agency. 
You took over a troubled agency that had some personnel and 
morale issues, and from everything I've seen, you've really 
turned the agency around. And I commend you for your 
leadership.
    Admiral Syring. Thank you, ma'am. As I sign off every 
update to the Agency, it's an honor to serve with each one of 
them. And I've been in the Navy 28 years, and it's by far the 
most professional and dedicated workforce I've ever had the 
chance to work with.
    Senator Collins. That is great to hear, because the mission 
is a really important one.
    Thank you, Mr. Chairman.
    Senator Durbin. Thank you, Senator Collins.
    I asked the staff: How much have we spent on missile 
defense since President Reagan said this was a national goal? 
Their estimate is $150 billion. It's been 5 years since we've 
had a successful intercept test--5 years. And all the 
conversation from the administration, and at this table today, 
has been about how we should continue to spend more for silos 
in Alaska, for the placement of ground missile defense on the 
East Coast, and so forth.
    I'm trying to reconcile the appetite of Congress to keep 
spending more money with the actual results of testing. I want 
this country to be safe, and I believe if we had a ground 
missile defense system that worked, we would be a safer Nation, 
period.
    Can you reconcile two things that you have said here? 
First, ``Fly Before You Buy.'' I think I understand that to 
basically say, ``We're not going to buy something until it's 
proven that it works.'' And secondly, the notion that we're 
committing ourselves to 14 more interceptors in a year or two, 
when we haven't really flown. We're buying before we fly. We 
haven't really proven that these interceptors can work. How do 
you reconcile that?

                           FLY BEFORE YOU BUY

    Admiral Syring. Sir, I'll answer it in two ways. The 
interceptor that we're going to buy after we fly is the newest 
interceptor that addresses many of the legacy and rapid 
fielding issues that were in the design of the prototypes that 
were fielded in the 2000s.
    The CE-II was the program and the upgrade that we intended 
to pursue and did pursue after we fielded the GBIs very, very 
quickly.
    The CE-II intercept failure, sir, that we've seen, the new 
ones, have been in the very late end game of the intercepts, 
meaning that everything up to that point worked. The booster 
worked; the updates worked; the ballistic missile defense 
system gave it the track. Everything worked.
    What we're talking about is a very delicate system in the 
end game that, frankly, we did not see until the flight test. 
The first failure was a quality issue. It wasn't a technology 
issue. It was a lock wire. The second issue is only observed 
through the first actual flight test after that failure when we 
saw it in the end game. We understand what happened. We've been 
able to replicate it in the ground test.
    So I'm talking about a very small component of the overall 
interceptor, the inertial measurement unit (IMU). And through 
ground testing, we're confident that in the flight test it will 
work. Again, both of those intercepts, all the way up to the 
point of failure, did everything they needed to do. It's case 
in point, if you just consider the first failure, though, sir, 
of the importance of producibility, of quality control, of 
everything that is endemic in the manufacture of an 
interceptor. And those processes have been improved greatly 
over the last 4 or 5 years.
    So, that said, and I said this before, Mr. Chairman, the 
hit-to-kill technology I'm confident of. We've proven it not 
just in this program, but other programs. It's a matter of 
getting to a producible, repeatable, quality-controlled design 
and manufacture of an interceptor.
    Senator Durbin. So is it fair, I want these tests to be 
successful. We've invested a lot of money. If this works, we're 
a safer Nation. So, I'm not starting hoping for the worst; I'm 
hoping for the best. And I like your confident feel that, you 
know, the day is coming soon when we have a successful test.
    But is it fair for us in this role, in the Appropriations 
Committee, to say we're going to stand by ``Fly Before You 
Buy'' before we make a commitment to 14 more interceptors or an 
expansion of the ground missile defense system, we're going to 
wait for that successful test to prove that this is money well 
spent?
    Admiral Syring. You should demand that, sir.
    Senator Durbin. Thank you. Let me ask you this question: If 
the threats are Iran and North Korea, and we are currently 
testing long-range missiles, are either of those countries 
capable of launching long-range missiles, not ICBMs, that would 
be a threat to the territory of the United States?
    Admiral Syring. I'm just hesitating a little because of the 
classification.
    Senator Durbin. If you can't answer it in open session, I 
understand.
    Admiral Syring. The important point, and it's in the open 
intelligence, is that they've never yet flight-tested that 
long-range capability. But the Taepo Dong-2 launch, again as I 
stated, means something in terms of the ability of getting a 
payload into space successfully. So, although the threat 
missiles haven't been tested at that range, the technology, I 
think, took a step with the demonstration of that flight.
    We must continue to monitor that, sir, and not count that 
it won't be successful. We must plan that it will be 
successful. And we must be able to maintain our defense of the 
country.
    Senator Durbin. Do you know the cost of the 14 interceptors 
the administration is asking for?
    Admiral Syring. The budget in terms of the out-year budget 
projection is $75 million per interceptor.
    Senator Durbin. Per interceptor. Thank you.
    Senator Cochran.
    Senator Cochran. Thank you very much for your cooperation 
with our committee. And I think the questions and the answers 
have helped us understand better what the testing program is 
doing and producing and contributing to our future security. 
Thanks for your service.
    Admiral Syring. Thank you, sir.
    Senator Durbin. Senator Shelby.
    Senator Shelby. Mr. Chairman, I think a classified hearing 
would be in order here because we'll probably learn a lot more 
in the hearing. I wish you would consider getting this into a 
closed session. Would you do that?
    Senator Durbin. Sure.
    Senator Shelby. I think it's very important. Thank you.
    Senator Durbin. Senator Murkowski.
    Senator Murkowski. I would just repeat the request of my 
colleague here. I, too, would appreciate the opportunity to 
learn more in a closed setting.
    Senator Durbin. We can certainly do that, if it's okay with 
the ranking Republican.
    Senator Shelby. It is.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Durbin. So we'll follow through with that. And 
thank you for your cooperation. If there are no further 
questions from the panel, I want to thank Admiral Syring for 
his testimony today. We may send you some written questions, 
and I hope you'll get a chance to respond to them in a timely 
way.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Dianne Feinstein

        SOLID DIVERT AND ATTITUDE CONTROL SYSTEM INDUSTRIAL BASE

    Question. With the cancellation of the SM-3 IIB Program, the 
Missile Defense Agency intends to continue development of next 
generation kill vehicle technologies including key components such as 
solid Divert and Attitude Control Systems (DACS) to enable long-
duration missions. The industrial base for this critical component is 
comprised of only two providers. Each provider offers a unique 
technological approach to expand the capabilities of next generation 
kill vehicles.
    What is MDA's plan to invest in technology development by both 
solid DACS providers? How will this investment plan promote the health 
of the industrial base and mature burgeoning solid DACS technologies 
for competitive development and procurement of next generation systems?
    Answer. The Agency is funding both Alliant Techsystems and Aerojet 
in fiscal year 2013. Alliant Techsystems is investigating and maturing 
light weight, long mission duration SDACS technology. Aerojet is 
developing more capable SDACS for the SM-3 IB and SM-3 IIA development 
programs.
    The fiscal year 2014 President's budget request provides the 
necessary funding to sustain the solid DACS industrial base for another 
year. We are working with the Department and other agencies to promote 
a strong industrial base for defense related technologies.

                                 ISRAEL

    Question. What is the status of the technical data rights sharing 
between the U.S. and Israel for the Iron Dome system. What is the 
status of beginning co-production with U.S. defense firms?
    Answer. The Missile Defense Agency (MDA) and the Israel Missile 
Defense Organization (IMDO) are negotiating an international agreement 
related to production of Iron Dome for Israeli protection, including 
co-production by U.S. firms; we expect to conclude/sign the agreement 
this fall.
    Regarding technical data rights and technical data packages (TDPs), 
the above agreement will also require the IMDO to give MDA the TDPs 
they have. In addition, the IMDO and MDA will jointly study cost, 
schedule and intellectual property impacts to acquire the necessary 
TDPs/data rights to build the system in the United States in its 
entirety. The DOD currently lacks a Iron Dome requirement for U.S. 
defense needs. The study could inform a future decision.

          INCREASED GROUND-BASED MID-COURSE DEFENSE IN ALASKA

    Question. Adm. Syring, how will the recent test failure of the CE-I 
``kill vehicle'' (KV) affect the decision to deploy 14 additional CE-II 
KVs by 2017? Has the test failure affected the timeline for the CE-II 
test?
    Answer. The recent test failure of the CE-I ``kill vehicle'' does 
not affect the decision to deploy 14 additional CE-II KVs by fiscal 
year 2017. MDA will achieve complete confidence in the Ground-Based 
Interceptor (GBI) designs before fielding the additional 14 GBIs. On 
July 5, 2013, MDA conducted Flight Test GBI (FTG)-07 using a legacy 
Capability Enhancement (CE)-I Exoatmospheric Kill Vehicle (EKV). The 
GBI successfully launched, but the target was not intercepted. MDA 
initiated a Failure Review Board (FRB) to determine the root cause of 
the failure. In parallel with the FTG-07 FRB, MDA will verify there is 
separation (the absence of potential common flaw) to ensure the cause 
of the FTG-07 failure is not present in the CE-II GBIs.
    MDA is continuing its Return to Intercept (RTI) program by 
conducting extensive ground testing of the CE-II EKV to ensure the root 
causes of the FTG-06a flight test failure have been corrected and to 
qualify its design. If CE-I/CE-II separation is established, MDA (with 
COCOM and Pentagon consideration) will plan to execute FTG-06b as 
currently scheduled for March-May 2014. If MDA cannot establish 
separation, the FTG-06b flight test date will depend on the progress 
and results of the FTG-07 FRB. Successful completion of the flight 
test, coupled with extensive ground test results, will allow resumption 
of planned CE-II GBI deliveries for operational use.
    Additionally, MDA is currently developing a CE-II Block I design 
that will incorporate enhancements to improve performance and 
reliability. MDA will conduct extensive modeling and simulation and 
ground testing to fully qualify the CE-II Block I design. MDA will then 
demonstrate the CE-II Block I EKV in an intercept flight test scheduled 
for fiscal year 2016. The successful completion of ground and flight 
testing of the legacy CE-II and CE-II Block I designs will provide 
complete confidence in the fielded CE-II fleet and for the deployment 
of additional interceptors required to achieve 44 operational GBIs by 
the end of fiscal year 2017.
    If MDA cannot establish design separation, or if the FTG-07 (CE-I) 
failure review board indicates the root cause could be present in the 
CE-II design, the CE-II flight test timeline could be affected.
    [This document contains information that may be exempt from 
mandatory disclosure under the Freedom of Information Act.]
    Question. Please tell me how many and what types of tests will be 
required before the Pentagon makes a decision to deploy the 14 
additional interceptors in Alaska. Is one successful intercept test 
enough? Is there a requirement that the system be tested against 
realistic countermeasures and decoys before deployment?
    Answer. MDA will achieve complete confidence in the Ground-Based 
Interceptor (GBI) designs before fielding the additional 14 GBIs. On 
July 5, 2013, MDA conducted Flight Test GBI (FTG)-07 using a legacy 
Capability Enhancement (CE)-I Exoatmospheric Kill Vehicle (EKV). The 
GBI successfully launched, but the target was not intercepted. MDA 
initiated a Failure Review Board (FRB) to determine the root cause of 
the failure. In parallel with the FTG-07 FRB, MDA will verify there is 
design separation (the absence of potential common flaw) to ensure the 
cause of the FTG-07 failure is not present in the CE-II GBIs.
    Yes, a successful intercept flight test, coupled with extensive 
ground test results, of the CE-II GBI is required before deployment of 
the 14 additional interceptors in Alaska. MDA is continuing its Return 
to Intercept (RTI) program by conducting extensive ground testing of 
the CE-II EKV to ensure the root causes of the FTG-06a flight test 
failure have been corrected and to qualify its design. If CE-I/CE-II 
design separation (the absence of a common flaw) is established, MDA 
(with COCOM and Pentagon consideration) will plan to execute FTG-06b as 
currently scheduled for March-May 2014. If MDA cannot establish design 
separation, the FTG-06b flight test date will depend on the progress 
and results of the FTG-07 FRB.
    Yes, GMD Ground and Flight Test scenarios, that support GMD 
deployment decisions, are designed to include realistic countermeasures 
and decoys as required by the Ballistic Missile Defense System 
Specification and the Adversary Data Package threat suite. The 
successful completion of ground and flight testing of the legacy CE-II 
and new CE-II Block I designs will provide confidence in the fielded 
CE-II fleet and for the deployment of additional interceptors required 
to achieve 44 operational GBIs by the end of fiscal year 2017.
    [This document contains information that may be exempt from 
mandatory disclosure under the Freedom of Information Act.]
    Question. What is the current cost of a CE-II kill vehicle? How 
much will it cost to modify the CE-II kill vehicles already deployed on 
interceptors?
    Answer. The current cost of a Capability Enhancement (CE)-II Block 
I kill vehicle in the Development and Sustainment Contract is $32.6 
million.
    The current cost estimate to modify each CE-II Exoatmospheric Kill 
Vehicle is approximately $18 million. The $18 million estimate is based 
on a fix consisting of replacing the current hard-mount Inertial 
Measurement Unit (IMU) containing version 0 firmware with a cradled IMU 
containing version 10 firmware. It also includes installation of the 
new EKV second locking feature, EKV sunshade knife edge adapter, Stage 
1 and 2 nozzle closures, Stage 2 and 3 Thrust Vector Control 
Electronics Control Units, and as necessary, Divert Attitude Control 
System tanks, and frangible rails and rings. This effort includes de-
emplacement, reverse flow and testing, forward flow and testing, 
emplacement and checkout.
    Question. Please provide a breakdown of the costs for the planned 
deployment of the 14 additional Ground-Based Interceptors.
    Answer. [FOUO] The total cost estimate to refurbish Missile Field-1 
(MF-1) and purchase 14 GBIs is $1,356 million then year (TY) dollars. 
The cost breakdown follows:
  --[FOUO] The President's budget 2014 (PB 2014) provides $224 million 
        TY to upgrade MF-1 and construct a new mechanical electrical 
        building. In fiscal year 2014, the funding is divided: $82 
        million Military Construction and $53 million Research, 
        Development, Test and Evaluation (RDT&E). In fiscal year 2015 
        and fiscal year 2016, RDT&E.
  --[FOUO] PB 2014 provides $459 million TY for procurement and 
        emplacement of six additional GBIs. Extrapolating PB14 funding 
        through fiscal year 2022, 14 GBIs would cost $1,132 million.
    [This document contains information that may be exempt from 
mandatory disclosure under the Freedom of Information Act.]

               GROUND-BASED MID-COURSE DEFENSE (GENERAL)

    Question. The Missile Defense Agency has stated that the Ground-
Based Midcourse system is sufficient to address current North Korean 
and Iranian ballistic missile threats. The 1999 National Intelligence 
Estimate (NIE) stated that Iran and North Korea could develop 
countermeasures by the time they flight test their ballistic missiles. 
Does the MDA include countermeasures using technologies like those the 
NIE discussed when making this assessment?
    Answer. [Deleted.]
    Question. The 2012 National Research Council (NRC) report comparing 
boost-phase ballistic missile defense to other approaches identified 
six fundamental precepts of a cost-effective ballistic missile defense. 
It found, ``. . . the current GMD system deficient with respect to all 
of these principles.'' Because of these problems, the NRC recommended 
an entirely new ground-based missile defense, or GMD, system, with new 
interceptors, radars, and concept of operations. This criticism was not 
restricted to the failure of the CE-II kill vehicle, yet you have 
testified that a successful intercept test of the CE-II is all that is 
required before moving ahead with buying 14 more interceptors. Why is 
the administration recommending the purchase of 14 more ground-based 
interceptors, or GBIs, when the NRC found the current system so 
lacking?
    Answer. The National Research Council put forth many ideas, some of 
which are currently being pursued as part of the GMD Program of Record. 
Others, while sound in concept, require more refinement or research to 
be practical. For all of these ideas, deploying any of them is many 
years away. We continue to have confidence in the basic design of the 
GMD weapon system. Our flight testing consistently demonstrates the 
multiple elements of the Ballistic Missile Defense System (BMDS) do 
work together reliably as intended. The GMD failures experienced 
recently with the CE-II version of the Exo-Atmospheric Kill Vehicle 
(EKV) (FTG-06/FTG-06a) did not show fundamental problems with the 
concept. These tests revealed issues under stressing conditions that 
required flight testing to identify. The learning that comes from these 
failures is the purpose of developmental flight testing and ultimately 
leads to a more robust and reliable system. On the strength of the 
confidence in the overall BMDS, the Secretary of Defense determined the 
best near-term strategy to address imminent adversary developments is 
acquiring 14 more current configuration GBIs in the near term. As the 
NRC noted in their Major Finding 6, the GMD can be effective as 
designed against the current limited threats, but requires continued 
evolution to meet the emerging adversary threats. MDA has mid- to long-
term plans to evolve the EKV to meet these threats through the Phase 3 
Common Kill Vehicle Technology design now under study, as well as 
implementing other improvements in other elements of the BMDS. We will 
continue to evaluate improvements to the GMD system as recommended in 
the NRC report.

                                TESTING

    Question. What is the range of parameters included in GBI and Aegis 
BMD tests to make the tests realistic? For each system, have they 
included:
  --a tumbling warhead or missile;
  --countermeasures such as chaff, booster fragmentation, or mylar 
        balloons coupled with anti-simulation of the warhead;
  --use of a cooled shroud around the warhead;
  --use of radar absorbing material on the warhead;
  --multiple warheads or missiles;
  --inclement weather conditions;
  --tests against ICBM-range targets;
  --tests without knowing in advance the exact time of the target 
        missile launch;
  --tests without knowing in advance the exact size and shape of the 
        target;
  --a range of lighting conditions.
    For each of the scenarios above, if a test has not been performed, 
when is such a test planned? Will the upcoming test of the CE-II kill 
vehicle include any of these parameters?
    Answer. [Deleted.]
    Question. The MDA claims that launch on remote capability was 
demonstrated in two missile defense tests, FTM-15 using the AN/TPY-2 
radar and FTM-20 using the STSS satellite as remote sensors. The Flight 
Test fact sheets state that each interceptor launch was based on the 
association of the remote sensor data with the launch of either an 
intermediate or medium range missile. Only with the ability of the 
system to ``launch on remote'' is the European Phased Adaptive Approach 
system able to cover a large area. Without this capability, defended 
areas shrink to small regions around the interceptor sites, as 
explained by the Defense Science Board report on Early Intercept. In 
either test list above did any part of the defense system have advance 
knowledge of the nature or trajectory of its target? Did the Aegis BMD 
launch the SM-3 interceptor based solely on AN/TPY-2 data acquired 
during the FTM-15 test? Was the Aegis BMD able to launch the SM-3 
interceptor based only on STSS-D satellite data acquired during the 
FTM-20 test?
    Answer. FTM-15 was an operational test of the EPAA Phase I 
architecture; participants did not have advanced knowledge of the 
nature or trajectory of the target. Warfighters operating the Ballistic 
Missile Defense System used the system's tactical mission planning 
capabilities to define sensor coverages and doctrine settings. The 
operators were provided intelligence and warning orders about the 
threat only defined as potential launch areas and defended areas. 
Readiness posture of the system was determined by threat warnings 
provided by Pacific Command and Navy's 3rd Fleet. Target launch time 
was not known by the operators.
    FTM-20 was an experiment vice an operational test; participants did 
have advanced knowledge of the target as the test used developmental 
test architecture. FTM-20 demonstrated technical capability of space 
sensors, specifically the Space Tracking Surveillance System (STSS), to 
acquire and track a ballistic missile target and provide fire control 
quality track data to launch the SM-3 guided missile. Target trajectory 
was provided to operators of STSS and to Sailors onboard the ship. 
Target launch time was known to all participants.
    In FTM-15, the Aegis BMD 3.6 Weapon System calculated a fire 
control solution and launched the SM-3 Block IA guided missile based 
solely on AN/TPY-2 sensor data. The ship's SPY radar acquired the 
target in flight after the SM-3 launch. Combining initial data provided 
by the off-board sensor and the ship's SPY radar data, the Aegis BMD 
Weapons System completed closure of the fire control calculation during 
the SM-3's flight to consummate the intercept.
    The Aegis BMD was able to launch the SM-3 guided missile based only 
on STSS-D satellite data acquired during the FTM-20 test. In FTM-20 the 
Aegis BMD 4.0 Weapon System calculated a fire control solution and 
launched the SM-3 Block IA guided missile based solely on STSS sensor 
data. The ship's SPY radar acquired the target in flight after the SM-3 
launch. Combining initial data provided by the off-board sensor and the 
ship's SPY radar data, the Aegis BMD Weapons System completed closure 
of the fire control calculation during the SM-3's flight to consummate 
the intercept.
    Question. In a written response to a question from a 2012 hearing, 
J. Michael Gilmore, the Director of Operational Test and Evaluation 
stated that: ``This was the case in Flight Test Ground-Based 
Interceptor (GBI)-02 (FTG-02). Although the flight test objectives 
excluded actually killing the incoming RV, the EKV achieved a 
``glancing blow'' on the RV. Subsequent analysis indicated the 
``glancing blow'' would not have resulted in a kill. I score the FTG-02 
flight test as a hit, but not a kill.'' Does the MDA classify FTG-02 as 
a successful intercept? How is such an assessment consistent with Dr. 
Gilmore's assessment? When exactly was the determination made that only 
a ``glancing blow'' had been achieved?
    Answer. [FOUO] The MDA analysis agrees with Dr. Gilmore's 
assessment and classifies FTG-02 as a hit and not a kill. At the same 
time MDA classifies FTG-02 as a successful intercept. Intercept success 
is not determined solely by hit or kill status; it is determined by 
resulting viability of the RV. In this case, even though the GBI 
Exoatmospheric Kill Vehicle (EKV) did not kill the target, the EKV 
damaged it enough for aero thermal demise (e.g., the RV burned up in 
the atmosphere). The determination occurred during FTG-02 post flight 
analysis, which took place between September 2006 and May 2007.

                                SENSORS

    Question. In testimony before Congress last year, then-MDA director 
Lt. General Patrick O'Reilly stated that: ``The greatest future 
enhancement for both homeland and regional defense in the next 10 years 
is the development of the Precision Tracking Space System (PTSS) 
satellites.'' The administration recently cancelled the PTSS. What 
particular capabilities would PTSS have provided that the current 
system lacks? What systems or plans does the MDA have to compensate for 
the lack of PTSS-sourced data?
    Answer. The DOD terminated the PTSS program in April 2013.\1\ A GAO 
report on PTSS \2\ indicated that the DOD had considered canceling the 
program in November 2012 based upon a study of PTSS by OSD Cost 
Assessment and Program Evaluation (CAPE) initiated in 2011. Conclusions 
drawn in this study were outlined in a May 2013 report delivered to 
congressional defense committees and it is from this report that the 
rationale for program cancellation was outlined.\3\ The CAPE found 
risks in the proposed material solution and the execution plans 
summarized in three general areas:
---------------------------------------------------------------------------
    \1\ Dr. Ashton Carter, ``Resource Management Decisions for the FY 
2014 Budget Request,'' 10 April 2013, pg. 41.
    \2\ Christina Chaplain, ``Missile Defense: Precision Tracking Space 
System Evaluation of Alternatives,'' report GAO-13-747R, 25 July 2013.
    \3\ Richard Burke, ``Independent Cost Estimate for Missile Defense 
Agency Precision Tracking Space Syste,'' 8 April 2013.
---------------------------------------------------------------------------
    1. Technical risk
      -- The orbit of the PTSS constellation through the Van Allen 
            radiation belts posed a hazard to the satellite components, 
            potentially degrading the sensor assuming worst case 
            scenarios.
      -- Industry did not currently manufacture focal plane arrays in 
            the desired wavebands in the size required by PTSS 
            satellites.
    2. Acquisition risk
      -- To support timely deployment, the decision to commit to 
            industry contracts occurred before all technical risks on 
            the development program were retired.
      -- The primary member of the Lab development team, JHU/APL, had 
            limited experience developing operational DOD space 
            systems.
      -- The transition from a Lab development program to a commercial 
            production program added programmatic risk and potential 
            developmental redundancy.
    3. Cost risk
      -- MDA estimates of program life cycle costs were deemed 
            optimistic for this early stage of the design.
    The warfighter, in a shift of focus from regional conflict to the 
defense of North America, also noted the PTSS constellation--fine tuned 
for regional conflicts--lacked performance for homeland defense.
    PTSS was designed to be an agile, infrared space sensor that 
continuously tracked ballistic missile objects after boost, increased 
raid capacity, characterized objects in the threat cloud and was 
capable against mobile and emerging threats. Operating from space, PTSS 
could track missiles flying over 80 percent of the Earth's surface, 
could peer into large countries outside of harm's reach of offensive 
weapons, and required no transit into theater. PTSS track data would be 
available to any missile defense weapon system connected to the 
Ballistic Missile Defense System (BMDS) fire control network.
    PTSS would have provided improved capabilities to the BMDS. It was 
designed to:
  --Provide persistent and simultaneous access to adversary launch 
        sites distributed across the Earth's surface.
  --Deliver fire control quality tracks early in the trajectories of 
        homeland and regional threats, enabling over the horizon 
        launch-on-remote (LoR) and engage-on-remote (EoR) targeting 
        and--timelines permitting--shoot-assess-shoot tactics.
  --Receive tracking to provide high frame rate, multi-spectral optical 
        data in support of BMDS discrimination and kill assessment 
        functions.
    PTSS operated from space in order to provide persistent sensor 
coverage of known and emerging threats to:
  --Relieve global competition for scarce terrestrial sensor resources.
  --Handle cooperative adversaries separated by global distances 
        launching simultaneously, or to track launching out of surprise 
        locations.
  --Provide sensor support during crises and developing regional 
        conflicts when forces are not yet established.
  --Compensate for terrestrial outages due to maintenance down time or 
        adversary attacks to suppress defenses.
    There are other ways of implementing PTSS functions and features in 
the near term because (1) adversaries are few and geographically 
localized, (2) attack corridors are known, (3) indications and warning 
are reliably available, and (4) the terrestrial sensor force structure 
could be enhanced. For example:
  --Existing and programmed overhead persistent infrared (OPIR) sensor 
        capabilities could be extended in some situations to achieve 
        LoR track quality and to support the BMDS kill assessment 
        function.
  --High powered long range discriminating radars, properly positioned, 
        can effectively perform the midcourse discrimination task, 
        although the combination of optical and radar adds significant 
        robustness.
  --Interceptor kill vehicle sensing capability could be improved to 
        better discriminate threat objects and more effectively conduct 
        the engagement.
  --High altitude airborne IR platforms might be deployed in hot spots 
        to develop early fire control quality tracks and to provide 
        BMDS discrimination inputs with high resolution, multispectral 
        data.
    All investment options are currently under review by MDA as 
potential means to compensate for the lack of PTSS-sourced data.
                                 ______
                                 
              Questions Submitted by Senator Daniel Coats

    Question. How can MDA take advantage of unique university 
experimental facilities in propulsion, prognostics, hypersonics, cyber 
security and advanced system-of-systems, battle-management modeling and 
simulation to enhance missile system reliability and to develop the MDA 
human talent for future system success?
    Answer. The Missile Defense Agency (MDA) has an active university 
outreach effort that includes:
  --Campus visits from the MDA Director and top level MDA management.
  --Development of a university consortium focused on ``Innovative 
        Propulsion Technology Support''.
  --``Campus Champion'' program that teams MDA Leaders with specific 
        universities to develop strategic long term relationships with 
        academic institutions.
  --Development of a ``University Programs Playbook'' handout used to 
        help university researchers understand the needs of MDA and the 
        process to submit research proposals.
  --University colloquiums to address the depth and breadth of research 
        capabilities at U.S. universities.
    The MDA university engagement policy encompasses a holistic 
approach involving research; educational opportunities; career 
development; and science, technology, engineering, and mathematics 
activities.
  --Benefits to our university partners include:
    --Awareness of challenging research topics for missile defense.
    --Access to a source of funding for continuing research.
    --Shaping curricula to better prepare students for careers in 
            missile defense.
    --Real world experience through sponsored sabbaticals and summer 
            intern programs.
  --Benefits to MDA from these partnerships include:
    --Access to cutting-edge research and facilities and a pool of 
            nationally recognized scholars.
    --Exposing the Nation's brightest students to the intellectual 
            challenges a missile defense career offers.
    --Influencing the engineering curricula to better prepare the 
            future missile defense workforce.
    --Bringing a new perspective to solving some of the most difficult 
            missile defense-related problems.
    The MDA recently sponsored a colloquium with one of our university 
partners, Purdue University with presentations at Redstone Arsenal. 
Topics included:
  --Propulsion/combustion stability.
  --Agent-based command, control, battle management and communications 
        architecture.
  --Cyber security.
  --Reliability and producibility.
    In regards to the specific technology areas referenced in Senator 
Coat's question, the MDA has the following active university research 
efforts:
    Propulsion:
  --Purdue University: ``Propulsion Improvements for MDA 
        Applications''.--The research provides greater understanding of 
        the phenomenology involved with hypergolic thrusters and 
        combustion instability in to improve future Divert Attitude 
        Control System (DACS) divert thrusters. The goal is to provide 
        capability to withstand or prevent injector failures in an exo-
        atmospheric simulated environment without modifications to duty 
        cycles or thrusters.
  --Texas A&M: ``Solid Propellant Additives for DACS Applications''.--
        The research will demonstrate and develop the use of additives 
        for a tailored burning rate and extinguishable propellant.
  --Texas A&M: ``Ignition of Composite Propellants with Advanced 
        Additives''.--The research will characterize and modify as 
        needed the ignition behavior of the propellant formulation to 
        demonstrate the required attributes for a DACS mission.
  --University of Alabama Huntsville: ``Green Oxidizer Development''.--
        The research will explore a series of oxidizer content organic 
        chemicals tailored to meet decomposition demands either through 
        a heterogeneous or homogeneous catalytic approach.
    Battle Management Modeling and Simulation/Cyber Security:
  --Auburn University: ``Radar Signal Processing for Multi-Sensor 
        Tracking of Multiple Targets''.--The research will focus on the 
        development of a multi-sensor tracker to provide tracks (state 
        estimates) of the multiple targets in the surveillance region.
  --Purdue University: ``An Agent-based Concept for an Enhanced (C2BMC) 
        Architecture''.--The research will develop and test a two-
        tiered, agent based Command and Control, Battle Management and 
        Communications (C2BMC) architecture concept that links the best 
        mix of sensors and weapons in optimal communication and command 
        topologies.
  --Purdue University.--The MDA is a member of The Center for Education 
        and Research in Information Assurance and Security (CERIAS) 
        located at Purdue University.
  --University of Connecticut: ``Innovative Radar Signal Processing & 
        Algorithms, Decision Systems, Sensor Fusion, System Tracks, & 
        Correlation Ambiguity''.--The research will focus on forming 
        tracks from disparate sensors, as well as similar; extracting 
        boost phase information for subsequent system utility. This 
        approach addresses new requirements for the system to enable 
        persistent tracking and optimize efficiency.
  --University of Illinois: ``Intelligent and Robust Control for 
        Optimal Engagement Planning''.--This research focuses on the 
        problem of engaging a ballistic missile or its warhead and is 
        formulated as an optimal control problem. The trajectory from 
        launch to terminal phase is considered. Terminal guidance is 
        assumed to be provided conventionally, with a feedback 
        controller.
    Reliability:
  --University of Connecticut: ``Development of Innovative Solutions of 
        Hardware Security and Detection and Prevention of Counterfeit 
        Electronic Components''.--The research will address the 
        security and reliability of integrated circuits. Focusing on 
        the development of methodologies and tools for counterfeit 
        integrated circuits (IC) detection and prevention, supply chain 
        risk management (SCRM), detection and prevention of hardware 
        Trojans, and reliable IC design.
    The MDA has no current university research efforts in the areas of 
Hypersonics and Prognostics.
    The MDA pursues research opportunities with the Nation's 
universities through Broad Agency Announcements posted on the FedBizOps 
website twice a year. Research topics are derived from the mission and 
needs of the Ballistic Missile Defense System.
    [This document contains information that may be exempt from 
mandatory disclosure under the Freedom of Information Act.]
    Question. How can MDA work together with the industrial and 
university sectors to create a defense technology/product development 
pipeline to accelerate technology and products to market to meet MDA 
system future needs?
    Answer. The Missile Defense Agency (MDA) has an active university 
outreach effort that includes:
  --Campus visits from the MDA Director and top level MDA management.
  --Development of a university consortium focused on ``Innovative 
        Propulsion Technology Support''.
  --``Campus Champion'' program that teams MDA Leaders with specific 
        universities to develop strategic long term relationships with 
        academic institutions.
  --Development of a ``University Programs Playbook'' handout used to 
        help university researchers understand the needs of MDA and the 
        process to submit research proposals.
  --University colloquiums to address the depth and breadth of research 
        capabilities at U.S. universities.
    The MDA university engagement policy encompasses a holistic 
approach involving research; educational opportunities; career 
development; and science, technology, engineering, and mathematics 
activities.
  --Benefits to our university partners include:
    --Awareness of challenging research topics for missile defense.
    --Access to a source of funding for continuing research.
    --Shaping curricula to better prepare students for careers in 
            missile defense.
    --Real world experience through sponsored sabbaticals and summer 
            intern programs.
  --Benefits to MDA from these partnerships include:
    --Access to cutting-edge research and facilities and a pool of 
            nationally recognized scholars.
    --Exposing the Nation's brightest students to the intellectual 
            challenges a missile defense career offers.
    --Influencing the engineering curricula to better prepare the 
            future missile defense workforce.
    --Bringing a new perspective to solving some of the most difficult 
            missile defense-related problems.
    The MDA recently sponsored a colloquium with one of our university 
partners, Purdue University with presentations at Redstone Arsenal. 
Topics included:
  --Propulsion/combustion stability.
  --Agent-based command, control, battle management and communications 
        architecture.
  --Cyber security.
  --Reliability and producibility.
    In regards to the specific technology areas referenced in Senator 
Coat's question, the MDA has the following active university research 
efforts:
    Propulsion:
  --Purdue University: ``Propulsion Improvements for MDA 
        Applications''.--The research provides greater understanding of 
        the phenomenology involved with hypergolic thrusters and 
        combustion instability in to improve future Divert Attitude 
        Control System (DACS) divert thrusters. The goal is to provide 
        capability to withstand or prevent injector failures in an exo-
        atmospheric simulated environment without modifications to duty 
        cycles or thrusters.
  --Texas A&M: ``Solid Propellant Additives for DACS Applications''.--
        The research will demonstrate and develop the use of additives 
        for a tailored burning rate and extinguishable propellant.
  --Texas A&M: ``Ignition of Composite Propellants with Advanced 
        Additives''.--The research will characterize and modify as 
        needed the ignition behavior of the propellant formulation to 
        demonstrate the required attributes for a DACS mission.
  --University of Alabama Huntsville: ``Green Oxidizer Development''.--
        The research will explore a series of oxidizer content organic 
        chemicals tailored to meet decomposition demands either through 
        a heterogeneous or homogeneous catalytic approach.
    Battle Management Modeling and Simulation/Cyber Security:
  --Auburn University: ``Radar Signal Processing for Multi-Sensor 
        Tracking of Multiple Targets''.--The research will focus on the 
        development of a multi-sensor tracker to provide tracks (state 
        estimates) of the multiple targets in the surveillance region.
  --Purdue University: ``An Agent-based Concept for an Enhanced (C2BMC) 
        Architecture''.--The research will develop and test a two-
        tiered, agent based Command and Control, Battle Management and 
        Communications (C2BMC) architecture concept that links the best 
        mix of sensors and weapons in optimal communication and command 
        topologies.
  --Purdue University.--The MDA is a member of The Center for Education 
        and Research in Information Assurance and Security (CERIAS) 
        located at Purdue University.
  --University of Connecticut: ``Innovative Radar Signal Processing & 
        Algorithms, Decision Systems, Sensor Fusion, System Tracks, & 
        Correlation Ambiguity''.--The research will focus on forming 
        tracks from disparate sensors, as well as similar; extracting 
        boost phase information for subsequent system utility. This 
        approach addresses new requirements for the system to enable 
        persistent tracking and optimize efficiency.
  --University of Illinois: ``Intelligent and Robust Control for 
        Optimal Engagement Planning''.--This research focuses on the 
        problem of engaging a ballistic missile or its warhead and is 
        formulated as an optimal control problem. The trajectory from 
        launch to terminal phase is considered. Terminal guidance is 
        assumed to be provided conventionally, with a feedback 
        controller.
    Reliability:
  --University of Connecticut: ``Development of Innovative Solutions of 
        Hardware Security and Detection and Prevention of Counterfeit 
        Electronic Components''.--The research will address the 
        security and reliability of integrated circuits. Focusing on 
        the development of methodologies and tools for counterfeit 
        integrated circuits (IC) detection and prevention, supply chain 
        risk management (SCRM), detection and prevention of hardware 
        Trojans, and reliable IC design.
    The MDA has no current university research efforts in the areas of 
Hypersonics and Prognostics.
    The MDA pursues research opportunities with the Nation's 
universities through Broad Agency Announcements posted on the FedBizOps 
website twice a year. Research topics are derived from the mission and 
needs of the Ballistic Missile Defense System.
    [This document contains information that may be exempt from 
mandatory disclosure under the Freedom of Information Act.]
    Question. What new programs will be required to further develop and 
attract the essential MDA human talent base so that MDA may administer 
and develop the leading edge solutions to missile reliability?
    Answer. The Missile Defense Agency (MDA) does not require new 
programs. MDA already has in place several programs that develop and 
attract essential MDA human talent.
    In fiscal year 2013, MDA partnered with the Naval Postgraduate 
School to further develop our engineering workforce in Systems 
Engineering and Reliability. MDA sponsored a 1-year graduate level 
certification program in systems engineering to approximately 30 
employees. Four courses were offered focusing on systems engineering 
and reliability, and participants attended each class as a cohort. In 
fiscal year 2014, MDA will partner with the Naval Postgraduate School 
for a certificate program and a Systems Engineering Masters Degree 
program. The certificate program consists of four courses in 1 year in 
systems engineering. The Masters Degree program leverages the fiscal 
year 2013 class by adding 12 courses conducted 1 per quarter over a 3-
year period. The intent is to continue this partnership subject to 
funding and needs of the agency.
    In addition to the above, the MDA leverages existing Federal human 
resource flexibilities and benefits. Below are examples of Government 
Flexibilities utilized at MDA:
  --Department of Defense Civilian Acquisition Workforce Personnel 
        Demonstration Project (AcqDemo).
    --Provides flexibilities to hire, set pay, reassign, and rate 
            employees based on their contributions.
  --Expedited Hiring Authority for Acquisition Positions in accordance 
        with subsection 1705(h) of Title 10, U.S.C., as amended by 
        section 833 of the NDAA fiscal year 2009.
  --Recruitment, Relocation, and Retention Incentives (as appropriate).
  --Student Loan Repayment (as appropriate).
  --Creditable Service for Annual Leave Accrual for Non-Federal Work 
        Experience and Experience in the Uniformed Service (as 
        appropriate).
  --Telework.
  --Wellness Programs.
  --Federal Employees Health Benefits (FEHB).
  --Supplemental Dental and Vision Insurance (FEDVIP).
  --Federal Employees Group Life Insurance (FEGLI).
  --Thrift Savings Plan (TSP).
  --All Flexible Spending Accounts (FSA).
  --Long Term Care Insurance (LTC).
  --Civil Service Retirement System (CSRS).
  --Federal Employees Retirement System (FERS).
  --Alternate Work Schedule (AWS) Program:
    --Flexible Work Schedule (FWS).
      -- a fixed work schedule with daily start and end times different 
            from the MDA regular work schedule.
    --Compressed Work Schedule (CWS).
      -- a fixed schedule enabling a full-time employee to work 80 
            hours per biweekly pay period on fewer than 10 workdays.
    [This document contains information that may be exempt from 
mandatory disclosure under the Freedom of Information Act.]
    Question. With NATO members formally endorsing territorial missile 
defense and welcoming the European Phased Adaptive Approach (EPAA) at 
the November 2010 Lisbon Summit, what are the next steps to continue 
``NATO-izing'' the EPAA, and what do you see as the key milestones and 
challenges ahead? What impact or role does the EPAA play in NATO?
    Answer. NATO is developing the Active Layered Theater Ballistic 
Missile Defense (ALTBMD) program with NATO common funding. ALTBMD is 
the command and control backbone for NATO missile defense capability. 
Interim capability is deployed and operational.
    NATO is progressing on developing the next increment of ALTBMD/NATO 
BMD capability. The Missile Defense Agency has worked closely with NATO 
in the past to ensure interoperability of U.S. and NATO command and 
control systems. We will continue to work with NATO as they continue to 
develop ALTBMD capability.
    Phases 1 through 3 of EPAA are the U.S. contribution to NATO's 
missile defense capability. Several allies have announced potential 
missile defense national asset contributions to this capability, while 
others are considering missile defense upgrades or acquisitions.
    Question. Please describe any specific initiatives planned for the 
upcoming year regarding international missile defense cooperation, 
particularly in the Middle East and East Asia.
    Answer. The Missile Defense Agency (MDA) is engaged either 
bilaterally or multilaterally with over 20 countries and international 
organizations, such as the Gulf Cooperation Council.
    In Asia-Pacific, the United States and Japan are working together 
to support the deployment of the second U.S. forward-based AN/TPY-2 
radar. In addition, we continue to collaborate on developing Standard 
Missile-3 (SM-3) Block IIA to enable U.S. and Japanese Aegis Ballistic 
Missile Defense (BMD) ships to engage medium- and intermediate-range 
ballistic missile threats and, when coupled with the upgraded Aegis BMD 
weapon system, more sophisticated ballistic missile threats. Last year, 
we signed a second amendment to the formal joint agreement with Japan 
administering the SM-3 Block IIA Cooperative Development (SCD) effort. 
The amendment will reduce risk in the SCD program by adding flight 
tests and sufficient time in the schedule for additional engineering 
analysis between tests.
    The fiscal year (FY) 2014 budget continues MDA's longstanding 
commitment to support Israeli defensive efforts. We are working with 
the Israel Missile Defense Organization (IMDO) to deliver Iron Dome 
batteries and interceptors. Iron Dome has had significant success 
protecting Israel against short-range rockets and large artillery 
shells. We have been working closely with Department of Defense 
leadership to ensure U.S. funding for Iron Dome is being used 
effectively to produce additional batteries and interceptors. For 
fiscal year 2013 and beyond, the U.S. contributions to Iron Dome will 
be governed by a formal international agreement. We are actively 
seeking Iron Dome co-production opportunities for U.S. defense 
industry.
    We are also developing missile defense systems with Israel to 
address regional ballistic missile threats. The David's Sling Weapon 
System is designed to defeat short range ballistic missile threats. 
IMDO and MDA completed the first phase of the development of David's 
Sling last November with a successful intercept test. The MDA and 
Israel are also co-developing the Arrow-3 Upper Tier interceptor. The 
advanced design of this interceptor was successfully tested this past 
February in a non-intercept test, and a second fly-out test is 
scheduled for fiscal year 2014. We also participated in AUSTERE 
CHALLENGE 2012 exercises, which successfully demonstrated the concept 
of operations for the U.S.-Israel BMD architecture and future 
interoperability.
    Elsewhere in the Middle East, U.S. BMD capabilities continue to 
expand in defense of forward-deployed U.S. armed forces, allies, and 
partners. Major MDA activities in the Middle East involve relationships 
with regional partners expressing interest in procuring U.S. systems. 
Last year, MDA was officially designated as a foreign military sales 
(FMS) implementing agency for THAAD and the AN/TPY-2 radar. In addition 
to our current $4.9 billion FMS case with the United Arab Emirates for 
THAAD batteries and interceptors, we are engaged with several other 
potential FMS customers for these very capable systems.
    Question. Is the United States planning any missile defense 
cooperation with India? If not, why not?
    Answer. The Missile Defense Agency is not currently engaged in 
missile defense discussions with India. I defer specific questions on 
U.S.-India discussions to the Under Secretary of Defense for Policy.
    Question. What plans do you have on utilizing expertise inherent 
with the Naval Warfare Centers like NSWC Crane to help reduce program 
risk?
    Answer. The Missile Defense Agency (MDA) uses Naval Air and Surface 
Warfare Centers as partners in the development and support of Aegis 
BMD, and plans to continue these partnerships in the future. The Naval 
Air and Surface Warfare Center enterprise contributes broadly across a 
wide range of functional areas, as delineated in the attachment, 
including program risk reduction.
    In fiscal year 2013, approximately $186 million was authorized for 
Naval Air and Surface Warfare Centers to directly support MDA programs.
program support from naval air and surface warfare centers to aegis bmd
Naval Surface Warfare Center (NSWC) Crane
  --System Integrity Engineering Support
    --Review and assessment of quality and feasibility of employment of 
            system integrity initiatives
    --Identification of potential technology improvement of system 
            integrity
  --Parts, Materials and Processes Mission Assurance Plan
    --Risk identification, Assessment and Analysis
    --Contractor Compliance
    --Plan Implementation
  --SM-3 Missile Technical Support
    --Battery Engineering
    --System Safety
    --Failure Investigations
    --Storage
  --Technical Support, In-Service and Acquisition Engineering
    --Sensors, Electronics, Electronic Warfare and Special Warfare 
            Systems
NSWC Carderrock
  --Fleet Hull, Mechanical and Electrical (HM&E) Engineering
    --Verifies configuration of power (failure/interruption) transfer 
            systems
    --Provides logistics and sustainment for the HM&E mods
    --Vertical Launch System (VLS) heating and cooling systems
  --Fleet ship survivability and damage control engineering
  --Materials Engineering for Standard Missile (SM)-3 specialty 
        propulsion system components
Naval Air Warfare Center (NAWC) China Lake
  --Propulsion Engineering and Test Support
    --SM-3 Propulsion Analysis
    --Risk Assessment
    --Missile Component Engineering Support
    --System Safety
NSWC Corona
  --Independent Analysis and Assessment
    --Conducts Measurement Efforts
    --Scientific Research and Development Analysis
    --Develops and Verifies Metrology and Calibration Procedures
  --Threat Engineering
  --Mission Assurance Impact Assessment
NSWC Dahlgren--Aegis Weapon System Computer Program Lifetime Support 
        Engineering
    --Computer program maintenance
    --Independent testing in parallel with system development
    --Functional Area Assessments to identify computer program defects
    --Independent Navy Performance Verification testing after program 
            delivery
    --Vertical Launch System Engineering
    --Ship Integration Support
    --Aegis BMD Combat System
    --Configuration Management
NSWC Indian Head--Packaging, Handling, Shipping and Transportation of 
        Munitions Support
    --Manufacturing Technology
    --Weapons Containers
    --Ordnance Handling Equipment
    --SM-3 Domestic Transportation
  --Energetics Testing and Certification Support
    --SM-3 Pyrotechnic Energetic Device Certification Process
  --Insensitive Munitions Support
    --Research and Development of Explosives and Propellants
    --SM-3 Insensitive Ballistic Barrier System
NSWC Port Hueneme--Aegis Weapon System In-Service Engineering
    --In-service support and maintenance of equipment
    --Joint Assessment of Maintenance conducted during system 
            development and test
    --At-sea testing shipboard assessment of equipment operation and 
            maintenance
    --Logistics Support
    --Systems/Elements Under Test Support

 PROGRAM SUPPORT FROM NAVAL AIR AND SURFACE WARFARE CENTERS TO TARGETS 
                          AND COUNTERMEASURES

Naval Surface Warfare Center (NSWC) Crane
  --Trident (C-4) Motors Static Fire
  --Trident (C-4) Motors Aging and Surveillance
  --Performed an independent assessment of Lithium-Ion batteries to 
        determine safety on eMRBM target system and the aircraft 
        transporting the missile
Naval Air Warfare Center (NAWC) China Lake
  --Refurbish, maintain and modify existing or new Ground Handling 
        Equipment (GHE) or flight hardware used to transport, store or 
        test assets of the Targets and Countermeasure Program
NSWC Dahlgren
  --Provides Hazards of Electromagnetic Radiation to Ordnance (HERO) 
        susceptibility analysis/assessment for air certification for 
        air launch and ground transportation
  --Assist with Spectrum Supportability--Requests for Frequency 
        Allocations through the spectrum approval process
NSWC Port Hueneme, White Sands Attachment
  --Procure target hardware/software
  --Integrate and test Aegis Readiness Assessment Vehicles (ARAV) and 
        similar targets
  --Provide launch services and range operations for the targets
  --Conduct and consolidate pre & post-flight analysis
  --Conduct failure review boards for any target flight anomalies
NSWC Point Mugu
  --Participates in individual working group functions including items 
        that are PMRF local-range issues
  --Represents and speak for NAWC in review boards for test problems, 
        test failure resolution, and other items for which range 
        approval is needed led by the contractor on an as-needed basis
  --Attend test design planning, mission planning, and milestone 
        meetings on an as-needed basis

 PROGRAM SUPPORT FROM NAVAL AIR AND SURFACE WARFARE CENTERS TO QUALITY 
                               ASSURANCE

NSWC Crane
            Electronic parts reliability
    --Develops requirements and policy to support Ballistic Missile 
            Defense System (BMDS) level performance, reliability, part 
            screening and qualification requirements, part packaging 
            analyses, part obsolescence forecasting
    --Expertise in radiation hardening technology, Trusted and Secure 
            Electronics, and Stockpile reliability
    --Developed and maintains BMDS As-Designed Parts and Materials 
            List, which includes attributes for safety and mission 
            critical parts and materials
    --Management of MDA Mission Assurance Advisory Program (gathers 
            data on Lessons Learned, and conducts research and analysis 
            on issues related to electronic part reliability)
    --Member of Parts, Material and Processes Boards that approve 
            standardization, selection, qualification and acceptance of 
            electronic parts
    --Assesses electronic part failures and concurrence with root 
            causes and corrective actions
    --Conducts battery research, analyses, testing and qualification
    --Assesses safety and risk of battery technologies proposed by MDA 
            contractors
            Anti-Tamper (AT)
    --Expertise in technology assessments of memory components, Field 
            Programmable Gate Arrays and sensors
    --Supports Small Business Innovative Research efforts (Topic Team 
            Lead, Topic Author, Technical Monitor for 48 contracts, 
            outreach to MDA Prime Contractors)
            Counterfeit Part Detection
    --Serves as agency Lead for Counterfeit Parts risk reduction 
            program
    --Provides technical expertise in defining agency policy and 
            requirements for counterfeit parts, detection and avoidance
    --Performs on-site assessments of Unauthorized Distributors
    --Provides counterfeit part detection training to MDA and its 
            contractors
    --Performs counterfeit part detection testing at the Failure 
            Analysis Lab
            Additional NSWC Crane Support
    --Supports agency level contractor compliance audits
    --Commercial-Off-The-Shelf (COTS) assemblies
    --Printed Circuit Board Technology
    --Power systems analyses

    Question. What expertise has NSWC Crane provided to the Missile 
Defense Agency in the areas of electronic parts reliability, anti-
tamper, and counterfeit parts detection? What are your unfunded 
priorities in the areas of electronic parts reliability, anti-tamper, 
and counterfeit parts detection?
    Answer. NSWC Crane contributes broadly across a wide range of 
functional areas including Parts, Materials, and Processes (PMP) 
engineering support to the Missile Defense Agency (MDA) Parts and 
Materials Engineering Division of the Quality, Safety and Mission 
Assurance Directorate and anti-tamper support to the MDA Engineering 
Directorate.
    NSWC Crane has provided electronic parts reliability expertise in 
the following areas:
  --PMP requirements and policy development to support the Ballistic 
        Missile Defense System (BMDS) level performance and reliability
  --Electronic electrical and electromechanical part screening and 
        qualification requirements
  --Electronic part packaging analyses
  --Electronic part obsolescence forecasting
  --Radiation hardening technology
  --Development and maintenance of the BMDS As-Designed Parts and 
        Materials List, which includes attributes for the majority of 
        safety and mission critical parts and materials.
  --Management of the MDA Mission Assurance Advisory Program, which 
        captures critical data on lessons learned, and research and 
        analysis on emerging issues related to electronic part 
        reliability.
  --Trusted and secure electronics
  --Parts Engineering support of agency and individual MDA programs' 
        PMP Boards that approve standardization, selection, 
        qualification and acceptance of electronic parts
  --Parts Engineering assessments of electronic part failures and 
        concurrence with root cause and corrective actions
    NSWC Crane has provided anti-tamper expertise in the following 
areas:
  --Anti-tamper coordinator and anti-tamper technology development 
        roles for MDA
  --Anti-tamper technology assessments of memory components, focal 
        plane gate arrays, and sensors
  --Subject matter expert support of anti-tamper plan development for 
        MDA programs
  --MDA anti-tamper Small Business Research support: topic team lead, 
        topic author, technical monitor for 48 contracts, outreach to 
        MDA prime contractors.
    NSWC Crane has provided counterfeit part detection in the following 
areas:
  --Serve as Agency lead for the Counterfeit Parts Risk Reduction 
        Program
  --Provide technical expertise in defining agency policy and 
        requirements for counterfeit parts detection and avoidance
  --Perform on-site assessments of unauthorized distributors
  --Provide counterfeit part detection training to MDA and its 
        contractors
  --Perform counterfeit part detection testing at the NSWC Crane 
        Failure Analysis Laboratory
    Additional NSWC Crane Support includes:
  --Supports Agency-level contractor compliance audits
  --Commercial-Off-The-Shelf assemblies
  --Printed circuit board technology
  --Power systems analyses
  --Battery research, analyses, testing and qualification
  --Safety and risk assessments of battery technologies proposed for 
        use by MDA contractors
  --Stockpile reliability
    Total annual MDA funds provided to NSWC Crane across all above 
areas is $5.9 million. The President's budget request for fiscal year 
2014 as well as previous years has fully funded MDA's requirements in 
the areas identified above and currently additional funding is not 
required to meet these requirements. All of MDA's highest priorities 
have been fully funded.

                          SUBCOMMITTEE RECESS

    Senator Durbin. We'll set a classified briefing at your 
convenience and the convenience of the members.
    And the meeting of the subcommittee stands adjourned.
    [Whereupon, at 9:55 a.m., Wednesday, July 17, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
